Audit Report




OIG-10-024
Audit of the Office of the Comptroller of the Currency’s
Fiscal Years 2009 and 2008 Financial Statements


December 22, 2009




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              December 22, 2009

            MEMORANDUM FOR JOHN C. DUGAN
                           COMPTROLLER OF THE CURRENCY

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Office of the Comptroller of the Currency’s
                                    Fiscal Years 2009 and 2008 Financial Statements


            I am pleased to transmit the attached audited Office of the Comptroller of the
            Currency (OCC) financial statements for fiscal years 2009 and 2008. Under a
            contract monitored by the Office of Inspector General, GKA, P.C. (GKA), an
            independent certified public accounting firm, performed an audit of the financial
            statements of OCC as of September 30, 2009 and 2008 and for the years then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by GKA, are incorporated in the attachment:

                •   Independent Auditor’s Report on Financial Statements;
                •   Independent Auditor’s Report on Internal Control over Financial Reporting;
                    and
                •   Independent Auditor’s Report on Compliance with Laws and Regulations

            In its audit of OCC’s financial statements, GKA found:

                •   that the financial statements were fairly presented, in all material respects, in
                    conformity with accounting principles generally accepted in the United
                    States of America,

                •   no matters involving internal control and its operations that are considered
                    material weaknesses, and

                •   no instances of reportable noncompliance with laws and regulations tested.
GKA also issued a management letter dated October 30, 2009, discussing certain
matters involving internal control over financial reporting and its operation that
were identified during the audit but were not required to be included in the
auditor’s reports. This letter will be transmitted separately.

In connection with the contract, we reviewed GKA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. GKA is
responsible for the attached auditor’s reports dated October 30, 2009 and the
conclusions expressed in the reports. However, our review disclosed no instances
where GKA did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789 or a member
of your staff may contact Ade Bankole, Manager, Financial Audits at
(202) 927-5329.

Attachment
Office of the Comptroller
of the Currency

Annual Report
Fiscal Year 2009
                                                              “
“An   Act to Provide a National Currency,
 pictured in a photo illustration here and on the front cover,
  was signed into law by President Abraham Lincoln on
  February 25, 1863. The Act created a system of national
  banks authorized to issue a uniform currency secured by a
  pledge of U.S. government bonds. The Act also established
  “a separate bureau” of the Treasury Department, the
  Office of the Comptroller of the Currency, to charter,
  supervise, and regulate national banks.
Contents

Comptroller’s Viewpoint.......................................... 3

Section One: Year of Crisis and Correction............. 7

Section Two: Condition of the
National Banking System...................................... 21

Section Three: Executive Leadership..................... 25

Section Four: OCC Snapshots ............................. 39

Section Five: Financial Management
Discussion and Analysis....................................... 47

Acronyms............................................................. 79

Index...................................................................... 81




                                                 	                           1
“ Currency
  It shall be the duty of the Comptroller of the
             to report annually to Congress …                                     “
  such information … as, in his judgment, may be useful.


  —National Bank Act, June 3, 1864, Section 61


   2	    Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
Comptroller’s Viewpoint

My term as Comptroller of the Currency draws to an end on August 4, 2010. So it seems like an appropriate time
to look back on the four-plus years since I was sworn into office and offer some thoughts on what the future might
hold for the national banking system and the OCC, which it has been my honor to head.


To say that these years have been      On the retail side of the business,
eventful would be beyond under-        residential mortgage and home
statement. When I took office,         equity lending standards slipped,
the economy was growing, house         as banks increased allowable debt-
prices were continuing to climb,       to-income and loan-to-value ratios
and national banks were reporting      and made more loans with reduced
strong growth and profits. By tradi-   documentation requirements.
tional measures, loan quality was      Significantly, this easing of stan-
excellent, noninterest income was      dards came at a time when prices
robust, and capital was at historic    in the previously robust housing
highs. No bank failures occurred in    market were leveling off and, in
2005—or, for that matter, in 2006.     some markets, actually declining.

Yet, even then, it was clear that      The OCC focused increased               John C. Dugan
                                                                               Comptroller of the Currency
dark clouds were beginning to          supervisory attention on areas
form on the financial system’s         that presented elevated safety and      to improve their risk management
horizon. The OCC’s Survey of           soundness concerns. Less than           and disclosure policies on such
Credit Underwriting Practices          three months after taking office,       products. In part because of the
2005 showed continued easing           I addressed OCC credit examin-          OCC’s emphasis on the safety and
of credit standards, reflecting        ers and highlighted problems with       soundness and consumer compli-
pressure from competition and          underwriting standards, nontradi-       ance ramifications of subprime
optimistic assumptions for loan        tional mortgage products, and com-      lending, national banks tended to
volume, yield, and market share.       mercial real estate. Although we        steer clear of these risky products.
Vulnerabilities were evident in        were working on interagency guid-       The subprime loans that national
the quality of leveraged loans,        ance at the time, I told examiners      banks did make represented only
large corporate loans, and in rising   they should take steps immediately      a small fraction of the total market
concentrations of commercial real      to evaluate the quality of under-       and were generally of higher qual-
estate loans. Investors became         writing in banks they supervise         ity than those originated elsewhere.
increasingly wary of the risk such     and to ensure that consumers were
credits entailed, forcing many         receiving adequate disclosures.         Along with the other federal
banks to hold unexpectedly large                                               banking agencies, and over industry
volumes of corporate loans and         In September 2006, we issued            objections, we issued guidance that
loan commitments on their bal-         guidance on nontraditional mort-        called on banks with heavy com-
ance sheets.                           gages that required national banks      mercial real estate concentrations to



                                                                                        Comptroller’s Viewpoint	   3
adopt risk management and capital             Then, with suddenness that few          for making regulatory recom-
policies commensurate with the                foresaw, the subprime market col-       mendations on which smaller
increased risk such concentrations            lapsed. As institutions struggled to    institutions should receive TARP
posed. To monitor market trends               assess the extent of their mortgage-    capital. We were very involved in
and bank compliance with regula-              related losses and those of their       the design and application of the
tory policy, we conducted intensive           customers and trading partners,         “stress test” to assess how well our
reviews of commercial real estate             funding markets locked up,              largest institutions could withstand
portfolios in national banks across           exacerbating the national reces-        a substantial credit shock and what
the country. We delivered these               sion that had begun in December         additional capital needs these com-
cautionary messages repeatedly in             2007. Banks, including those that       panies might have. The rigor of the
speeches, in outreach meetings with           had never made a subprime loan,         tests and the transparency of the
bankers, and in our supervisory               came under enormous stress, and         results fostered a healing process
activities nationwide.                        the liquidity runs that followed        in which banks, as required by
                                              were responsible for the collapse       regulators, have been able to raise
And because capital is a key ele-             of several large institutions. The      substantial amounts of capital to
ment of any risk management                   impact on the financial system          help repair their balance sheets.
regime and the bulwark of a safe              was profound, and Wall Street’s
                                                                                      The OCC’s massive effort to
                                                                                      collect, analyze, standardize, and
     The OCC today is an organization that has                                        validate data on the performance
     the resources, the expertise, the energy, and                                    of mortgage loans represents a
     the experience to embrace the challenges that                                    contribution of which I am particu-
                                                                                      larly proud. Our Mortgage Metrics
     lie ahead.
                                                                                      Report, which we publish every
                                                                                      quarter, now covers about 24 mil-
and sound banking system, we                  troubles soon spread to Main            lion first-lien mortgages totaling
worked within the Basel Committee             Streets throughout America as           nearly $6 trillion in principal bal-
on Banking Supervision to develop             house prices fell, foreclosures rose,   ances—64 percent of all mortgages
the Basel II risk-based capital               and millions lost their jobs.           in the United States. This data set
requirements and with the other                                                       has provided a deeper understand-
federal banking agencies to produce           As this Annual Report recounts,         ing of the mortgage market. It has
rules for its implementation in the           the OCC played an important role        been particularly useful in help-
United States.                                in the government-wide effort           ing us understand what types of
                                              to stabilize the banking system,        mortgage modifications were most
                                              restore the flow of credit, and         likely to help distressed borrowers
                                              assist victims of the financial         avoid foreclosure and remain in
                                              crisis. We worked with the Federal      their homes. The OCC is using the
                                              Reserve and others to improve the       Mortgage Metrics data to inform
                                              liquidity positions of the banks        our supervisory policies and con-
                                              we supervise. We facilitated the        sumer protection initiatives.
                                              merger and acquisition by national
                                              banks of insolvent thrift insti-        We have also worked to enhance
                                              tutions and investment banks.           the quality of our supervision. The
                                              We were deeply involved in the          financial crisis identified several
                                              Troubled Asset Relief Program           areas in need of improvement.
                                              (TARP) capital assistance pro-          The difficulty many banks faced
                                              gram, both in regard to the larg-       in accessing liquid funds dem-
                                              est nine institutions that received     onstrated the need for improved
                                              TARP support and in the process         liquidity risk management and

4	      Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
                                                                                    access to your money and to be
                                                                                    reminded that our financial system
                                                                                    is truly a national one that offers
                                                                                    U.S. businesses and consumers an
                                                                                    array of products that would have
                                                                                    been unimaginable even a genera-
                                                                                    tion ago. Choice for consumers
                                                                                    and competition for their business
                                                                                    have served us very well indeed.

                                                                                    An organization is only as strong
                                                                                    as its people. Ensuring that the
                                                                                    OCC has the talented and dedi-
                                                                                    cated personnel it needs to perform
                                                                                    its important mission—not only
                                                                                    for today but for years to come—
                                                                                    has been one of my top priorities
                                                                                    throughout my tenure. Just after
improved regulatory tools to               though the longer that period lasted,    taking office, I approved plans to
analyze that risk. We need to better       the more likely it was that the cycle    strengthen our hiring and training.
understand and better manage the           would soon turn, increasing losses       We launched an ambitious recruit-
risk posed by complex financial            and the need for adequate reserves.      ing program targeting the nation’s
instruments, many of which were            I have long argued for greater flex-     college campuses and experienced
hidden in off-balance-sheet vehicles       ibility in those rules so that banks     financial professionals, while
that clouded the extent of the insti-      can build stronger reserves when         enhancing our capacity to teach,
tution’s exposure. And we need to          times are good and they can afford       develop, and retain employees.
revisit the issue of appropriate lev-      to do so, rather than wait until times   I am proud to say that this effort
els of concentration in such assets        are bad and the need to increase         has borne substantial fruit. Even
as commercial real estate loans.           reserves can seriously strain their      as we lose a number of seasoned
                                           financial condition and the ability to   professionals to retirement, we
As we adjust our supervisory               extend credit.                           have planned for the future by
approach and practices to address                                                   establishing an outstanding team
these challenges, we need to be            As I write this message, Congress        of younger employees who are
mindful of actions that are pro-           is considering the Administration’s      growing in their jobs every day.
cyclical. Where possible, bank             regulatory restructuring proposals.      The OCC today is an organization
regulation should serve as an              I won’t try to predict the outcome       that has the resources, the exper-
effective counterweight to the             of that debate—or even whether           tise, the energy, and the experience
excesses—up or down—of the                 it will have come to an end by           to embrace the challenges that
banking system. Here, capital and          the time you read this report. But       lie ahead.
loan loss reserves can play a critical     I would offer some thoughts on
role. At the start of this credit cycle,   the future. Since its creation in        Especially over the past two years,
financial institutions did not have        1863, the national banking system,       much has been asked of the dedi-
adequate loan loss reserves for the        consisting of the very largest and       cated employees of this agency.
true credit risk in their portfolios,      very smallest banks, has played a        They have more than risen to that
in part because the accounting             critical role in our nation’s eco-       challenge. I am proud to have had
system constrained their ability to        nomic growth. No matter where            the opportunity to lead them as the
increase and maintain a high level         you travel in the United States,         29th Comptroller of the Currency.
of reserves during a long period           you need only to walk to the near-
of benign credit conditions—even           est ATM to obtain instantaneous


                                                                                            Comptroller’s Viewpoint	   5
                                                                                  OCC Cities




6	   Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
Section One: Year of Crisis and Correction

Fiscal year 2009 was dominated by the worst financial crisis since the Great Depression. The Office of the
Comptroller of the Currency, the regulator and supervisor of national banks, joined with other federal agencies in
a concerted response to the crisis.


The year saw considerable prog-
ress toward restoring calm in
financial markets and recapitaliz-
ing the banking system. However,
credit quality continued to soften.
Assuring that banks take appropri-
ate action to recognize losses and
solidify their financial position,
have the resources to meet the
credit needs of the nation’s busi-
nesses and consumers, and possess
the appropriate tools and programs
to assist troubled borrowers were
among the foremost challenges
confronting the OCC’s 3,100             reduced documentation require-          quarter of 2006, the S&P/Case-
employees.                              ments became commonplace. The           Shiller Home Price Index recorded
                                        subprime segment, consisting of         its first drop since 1991 and then
Roots of the Crisis                     consumers with thin or impaired         kept dropping. For subprime bor-
The period 2000 to 2006 was a time      credit histories, doubled its share     rowers with adjustable-rate mort-
of rapid growth in the real estate      of total mortgage originations          gages, the drop made it difficult
market. Home buyers were attracted      during the period. Most of these        or impossible to refinance when
by historically low interest rates      subprime loans were made by non-        their loans reset to a higher mar-
and real estate appreciation. House     bank financial providers subject to     ket rate of interest. By late 2007,
prices soared nationwide, with          less rigorous regulatory oversight      close to one in five subprime loans
California, Arizona, Nevada, and        than banks and thrifts.                 was 90 days late or in foreclosure.
Florida registering the most dra-                                               Foreclosures depressed property
matic increases. Some homeowners        By late 2006, conditions that had       values still further, accelerating the
traded up or cashed out their capital   supported the real estate boom          downward spiral.
gains, while home builders worked       drastically changed. Houses that
overtime to keep up with demand.        had once been the subject of            The real estate collapse rippled
                                        bidding wars now sat unsold as          through the economy. As the
Home buyers and sellers pushed          the market stalled. After years of      underlying loans deteriorated, the
the financial envelope to expand        double-digit increases, home sales      holders, dealers, packagers of, and
sales, and loan features such as        sank 13 percent between March           investors in mortgage-backed secu-
deferred payment schedules and          2006 and March 2007. In the third       rities were forced to take massive


                                                                        Section One: Year of Crisis and Correction	   7
Responding to the Financial Crisis:
Partial List of U.S. Government Programs

U.S. Department of the Treasury
•	 Troubled Asset Relief Program (TARP)—
   provides funds for the purchase of assets,
   insures loans, and acquires stock in financial
   institutions.
•	 TARP subsidiary programs:
   –– Capital Purchase Program provides funds for
      the purchase of preferred stock in banks and
      receives warrants for purchase of common or
      preferred stock.
   –– Capital Assistance Program provides funds
      for purchase of preferred stock in banks and
      receives warrants for purchase of common
      stock. After seven years, the preferred stock
      automatically converts to common equity if not redeemed or converted before then.
   –– Targeted Investment Program for investment in banks and other institutions considered crucial to the
      financial system.
   –– Automotive Industry Financing Program makes loans and buys stock in the automotive industry.
   –– Public-Private Investment Plan provides loans and loan insurance to investors for purchase of troubled
      real estate-related assets.
   –– Asset Guarantee Program guarantees assets held by key financial institutions.
   –– Systematically Significant Failing Institutions Program aids institutions that are critical to the financial
      system.
   –– Making Home Affordable Program provides cash incentives to help lenders and homeowners modify
      mortgages.

Federal Reserve Board
•	 Term Asset-Backed Securities Loan Facility makes low-interest loans, with credit protection provided by
   TARP, to holders of asset-backed securities.
•	 Term Auction Facility makes short-term loans to banks.
•	 Primary Dealer Credit Facility provides overnight loans to banks and broker-dealers.
•	 Term Securities Lending Facility offers general collateral to banks and broker-dealers in exchange for
   other types of collateral.
•	 Commercial Paper Funding Facility buys highly rated unsecured and asset-backed commercial paper.
•	 Money Market Investor Funding Facility buys certificates of deposit and commercial paper.
•	 Asset-Backed/Commercial Paper/Money Market Mutual Fund/Liquidity Facility extends low-interest
   loans to financial firms that buy commercial paper from mutual funds.

Federal Deposit Insurance Corporation
•	 Temporary Liquidity Guarantee Program guarantees newly issued unsecured debt issued by eligible
   financial institutions. Separately, it also provides full federal insurance coverage of noninterest bearing
   checking deposit accounts.




8	      Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
write-offs, which exceeded $500             stock to almost nothing. Wachovia,          Economic Stabilization Act of 2008.
billion by mid-2008. Cash fled              the nation’s fourth largest bank            Two days later, the U.S. House of
into the safety of U.S. government          holding company, was acquired               Representatives followed suit, and
securities. Before the year was out,        by Wells Fargo, also a national             President George W. Bush signed
the mounting credit and liquidity           bank. The Federal Reserve estab-            the bill into law on October 3, 2008.
crisis had overwhelmed what were            lished an $85 billion credit facility
once some of the world’s most               so that insurance giant American            The law represented a comprehen-
powerful financial institutions.            International Group could meet its          sive attempt to restore confidence,
Investment bank Bear Stearns was            collateral obligations. In an event         stability, and liquidity to the U.S.
acquired by JPMorgan Chase, a               that sent tremors through the finan-        financial system. It included a
national bank. Another investment           cial world, Lehman Brothers, one            temporary increase in the limit
banking giant, Merrill Lynch, and           of the premier investment banks             of Federal Deposit Insurance
Countrywide Financial, a thrift             with almost $700 billion in assets,         Corporation (FDIC) insurance
that was the source of 20 per-              became the largest bankruptcy in            from $100,000 to $250,000 per
cent of all U.S. mortgages, were            U.S. history.                               insured account; acceleration of
merged into Bank of America,                                                            authority for the Federal Reserve
another national bank. Thrifts              Steadying the National                      to pay interest on reserves,
Washington Mutual and IndyMac               Banking System                              enabling it to extend the scope of
became, respectively, the larg-             On October 1, 2008, the Dow Jones           its lending capacity; and a require-
est and fourth largest financial            Industrial Average closed at 10,831,        ment that the U.S. Department
institution failures in U.S. history.       down 24 percent from its all-time           of the Treasury create an insur-
Fannie Mae and Freddie Mac,                 high a year earlier. On that day, in        ance program for mortgage-
government-sponsored enterprises            the face of rising fear in the money        backed securities. The Treasury
that owned more than half of                markets and evidence that the crisis        Department also was required to
all U.S. mortgages, were placed             was moving from the financial sec-          develop and implement a plan to
under government conservator-               tor into the general economy, the           increase assistance to troubled
ship, reducing the value of their           U.S. Senate passed the Emergency            mortgage borrowers.




The President’s Working Group on Financial Markets meets to discuss the Troubled Asset Relief Program (TARP), October 14, 2008.


                                                                                Section One: Year of Crisis and Correction	       9
The Troubled Asset Relief Program               unsecured debt of insured              to the government and submit
(TARP) was the law’s centerpiece.               depository institutions and most       to terms set by the Treasury
The program authorized $700                     U.S. holding companies (the            Department, which included
billion—$250 billion available                  Debt Guarantee Program), and           limits on executive compensa-
immediately and $450 billion more               another program that guaran-           tion, restrictions on dividend
if needed—for the purpose of pur-               teed certain noninterest-bearing       payments, and prohibitions on
chasing or insuring troubled assets.            transaction accounts at insured        unjust corporate enrichment.
                                                depository institutions (the
With this authority in hand, on                 Transaction Account Guarantee        Congress required that TARP
October 14, 2008, U.S. finan-                   Program).                            and ancillary programs were to
cial officials announced a three-                                                    be carried out in a manner that
pronged approach that Comptroller             •	 Using its new authority, the        was expeditious and effective,
of the Currency John C. Dugan                    Treasury Department established     both in restoring the nation’s
said was designed to send “a strong              the TARP Capital Purchase           financial stability and protecting
message to consumers, businesses,                Program, under which $250           the interests of taxpayers. The
and the entire financial system that             billion was earmarked for the       Treasury Department’s new Office
the U.S. government supports U.S.                purchase of senior preferred        of Financial Stability, created
banks.”                                          shares of solvent U.S. financial    to implement TARP, had to be
                                                 institutions. The top nine of       staffed and provisioned; eligibility,
•	 Under its new Commercial Paper                those institutions, including the   application, and review guidelines
   Funding Facility, the Federal                 four largest national banking       for institutions requesting Capital
   Reserve agreed to fund pur-                   organizations (Bank of America,     Purchase Program assistance had
   chases of short-term commercial               JPMorgan Chase, Citigroup, and      to be formulated; and reporting
   paper from high-quality issuers.              Wells Fargo), would receive half    relationships between the Office of
                                                 of that amount. The remaining       Financial Stability and its constitu-
•	 Following a systemic risk deter-              $125 billion was designated for     ents in the Treasury Department
   mination by the Secretary of                  regional and community bank-        and Congress had to be developed
   the Treasury (after consultation              ing organizations. Institutions     to ensure appropriate oversight and
   with the President), the FDIC                 receiving TARP funds were           control of its activities.
   board approved a limited guar-                required to provide warrants for
   antee of newly issued senior                  preferred (nonvoting) shares        The OCC played a major role in
                                                                                     implementing TARP and develop-
                                                                                     ing a well-functioning Office of
                                                                                     Financial Stability. Key OCC per-
                                                                                     sonnel were detailed to important
                                                                                     positions and tasked with setting
                                                                                     up accounting, finance, and report-
                                                                                     ing systems and developing inter-
                                                                                     nal communications systems and
                                                                                     databases to help the new office
                                                                                     track TARP transactions. OCC
                                                                                     staff helped select asset managers
                                                                                     to administer complex portfolios
                                                                                     of assets that were to be purchased
                                                                                     under TARP.

                                                                                     The OCC helped develop and
                                                                                     implement guidelines for partici-
                                                                                     pants in the Capital Purchase

10	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
                                                                               OCC’s four geographic districts,
                                                                               scrutinized applications before
                                                                               forwarding them for approval to
                                                                               the Senior Deputy Comptroller for
                                                                               Bank Supervision Policy.

                                                                               Supervisory Capital
                                                                               Assessment Program
                                                                               The CPP’s goal was to stabilize
                                                                               the financial system by provid-
                                                                               ing capital to healthy banks that
                                                                               required an extra level of capital
                                                                               for stability or lending. Continued
                                                                               economic slippage and deteriorat-
                                                                               ing asset quality during the first
                                                                               quarter of 2009, however, raised
                                                                               questions as to whether TARP par-
                                                                               ticipants might require additional
                                                                               capital support.

Program (CPP), which was              meet certain benchmarks went to          On February 10, 2009, Secretary
designed to provide capital to via-   the CPP Council, an interagency          of the Treasury Timothy Geithner
ble financial institutions. By late   body formed to ensure that institu-      announced a program to con-
October, the Office of Financial      tions across the financial system        duct special forward-looking
Stability released application        received consistent treatment.           examinations, or “stress tests,”
forms, term sheets, and guidance      After deliberation, the Council          of the 19 U.S.-owned bank hold-
for many institutions wishing to      could forward applications to the        ing companies with year-end
apply for TARP capital support.       Treasury Department with recom-          2008 assets exceeding $100 bil-
A three-step process was used to      mendations or requests for more          lion. These stress tests formally
evaluate applications. First, the     information. Applications from           became known as the Supervisory
applicant’s primary federal regula-   institutions that failed certain         Capital Assessment Program. The
tor conducted supervisory due dil-    supervisory criteria were generally      program’s goal was not only to
igence to determine whether the       withdrawn from consideration.            determine how individual bank
institution’s financial condition                                              holding companies might fare
met the Treasury Department’s         Several OCC employees served             under different scenarios, but to do
viability standards. Applications     on or provided staff support to          it systematically, using a consistent
passing this first-round review       the Council. The OCC also pro-           methodology that would produce
were forwarded to the Treasury        cessed and evaluated within tight        more meaningful results across
Department’s TARP Investment          time frames more than 400 TARP           institutions—something that had
Committee for review and pre-         applications from national banks         never before been attempted.
liminary approval and then sent       and monitored the use of TARP
to the Assistant Secretary of the     proceeds by recipient institu-           To compare the 19 participating
Treasury for Financial Stability      tions. OCC Examiners-in-Charge           bank holding companies, the fed-
for final approval.                   and examiners performed ini-             eral banking agencies developed a
                                      tial analyses and follow-up of           standardized format for the banks’
Applications that did not pass        applications. Assistant Deputy           use in presenting loan loss projec-
first-round review were subject to    Comptrollers, who head the OCC’s         tions for 12 different loan catego-
additional review and deliberation.   field locations, and district Deputy     ries and other selected assets. The
Applications that did not             Comptrollers, who preside over the       companies were asked to estimate

                                                                       Section One: Year of Crisis and Correction	   11
losses that would occur over the
next two-year period, under two
possible scenarios for the U.S.
                                                   Roughly half of the 19 holding companies
economy. The baseline scenario                     were found to have passed [the stress test]—
reflected a consensus view among                   that is, they held sufficient capital to continue
professional economists about the                  lending even under the adverse scenario.
anticipated depth and duration of
the recession; the adverse scenario
incorporated the possibility that             real estate loans. Other teams ana-    cycle and earnings pressure fac-
the recession might be deeper and             lyzed each company’s securities        ing national banks, as of June 30,
longer than expected and losses               portfolio, trading book, and loan      2009, 97 percent of all national
correspondingly greater. The com-             loss reserve coverage. Technical       banks satisfied the required mini-
panies also were asked to provide             advisory specialists in accounting,    mum capital standards to be con-
projections of resources—capital,             regulatory capital, and financial      sidered “well capitalized,” and 76
revenues, earnings—available to               and macroeconomic modeling also        percent reported positive earnings.
absorb such losses.                           contributed.
                                                                                     Supervising Adverse Credit
The federal banking agencies then             The agencies went to considerable      Quality
performed a detailed, firm-specific           lengths to ensure that the review      In some ways, 2009 was the story
analysis of each of the participat-           process was rigorous, objective,       of two national banking systems.
ing companies, using proprietary              independent, and as transparent        At the beginning of the year, with
data as well as information derived           as possible. The agencies applied      the focus on averting a possible
from ongoing supervisory activity.            pending accounting changes             collapse of the nation’s financial
More than 150 senior examiners,               (Financial Accounting Standards        system and key funding markets,
economists, and financial analysts            166 and 167), requiring the com-       the largest banks were under siege
from the OCC, Federal Reserve,                panies to bring many securitized       while midsize and community
and the FDIC were organized into              assets onto their balance sheets,      banks held up well. By midyear,
teams, each of which focused on a             where they were subject to mini-       market conditions had stabilized,
specific asset category—for exam-             mum capital requirements. This         reducing fears of systemic fail-
ple, consumer loans or commercial             tougher standard lent credibility to   ure. But the deepening recession
                                              the agencies’ assessments.             began taking a toll on hundreds
                                                                                     of smaller banks, particularly
                                              On May 7, 2009, less than 10           those with heavy concentrations
                                              weeks after the stress tests began,    of commercial real estate loans.
                                              the agencies released the results.     For regulators and bankers, the
                                              Roughly half of the 19 hold-           focus shifted from stabilizing the
                                              ing companies were found to            financial markets and resolving
                                              have passed—that is, they held         interbank liquidity to the more
                                              sufficient capital to continue         traditional concern with identifying
                                              lending even under the adverse         and managing problem credits.
                                              scenario. The others were given
                                              until June 8, 2009, to submit a        Two high-profile reports on bank
                                              plan to increase capital and until     credit conditions—one reflecting
                                              November 9, 2009, to implement         the performance of large syndi-
                                              it. Most had achieved their capital    cated loans already on the books,
                                              targets by the end of the fiscal       the other addressing changing
                                              year on September 30, 2009.            standards for new loans—provided
                                                                                     a snapshot of conditions in the
                                              In spite of the difficult credit       banking system. In their 2009


12	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
                                      enforcement actions in 2009 are in       institutions to collect and fur-
                                      Section Four, page 41.)                  nish data about the mortgage
                                                                               loans they make, including race,
                                      Meanwhile, national bank failures        ethnicity, and gender of borrow-
                                      rose to 13 in fiscal year 2009 from      ers, and purpose of the loans
                                      five in fiscal year 2008. When a         (purchase, refinance, or home
                                      national bank fails, the OCC is          improvement). While these data
                                      responsible for minimizing the           are a valuable tool in identifying
                                      impact on customers and on the           possible fair lending violations,
                                      federal deposit insurance fund. To       they can be misleading because
                                      facilitate timely and cost-effective     the credit information banks use
                                      resolution of insolvent national         to make loan decisions is not
                                      banks, the OCC began to accept           included in the HMDA data that
                                      preliminary applications from            banks collect. Absent that infor-
                                      potential bidders for insolvent          mation, HMDA data may suggest
                                      bank assets and deposits. Under          potential illegal discrimination
                                      these new procedures, the OCC            where none exists.
                                      reviews applicants’ qualifications,
annual survey of shared national      capital, and business plan. If the       The OCC’s new approach requires
credit (loans of $20 million or       applications pass review, the OCC        large banks to augment HMDA
more held by three or more banks),    may grant charters that remain on        data with information relating to
the federal banking agencies—the      the shelf, ready to be activated, if     borrower credit factors (loan-to-
OCC, Federal Reserve, FDIC, and       the potential acquirers are success-     value and debt-to-income ratios
the Office of Thrift Supervision      ful in their bids.                       and credit scores); the distribution
(OTS)—recorded extensive dete-                                                 channel for the loan (bank branch,
rioration. Meanwhile, in the OCC’s    The OCC strives to be consistent         broker, or correspondent); and the
Survey of Credit Underwriting         in its approach to bank supervi-         characteristics of the loan itself
Practices 2009, which covered         sion. In 2009, it continued to           (conforming or nonconforming,
the quarter ending June 30, 2009,     emphasize that bankers should            fixed or variable rate, government-
National Bank Examiners reported      make good loans to creditworthy          insured or not). Examiners and
tightening terms and conditions       borrowers, conduct sound analysis        economists sift through this data
for most loan products, reflecting    of financial and collateral informa-     before starting the examination,
the poor condition of the economy     tion, work constructively with bor-      enabling them to better target
and lenders’ reduced appetite for     rowers experiencing difficulties,        products and portfolios that con-
risk. More conservative underwrit-    and confront credit problems in a        tain anomalies.
ing standards should prove to be a    forthright and timely manner.
source of strength and stability to                                            This approach has been shown
the banking system in future years.   Improving Home Mortgage                  to generate fewer false positives,
                                      Disclosure Act Compliance                making fair lending compliance
As strains in the economy took        Consistent with its commitment to        more efficient and risk-based.
their toll, the number of problem     enforcing compliance with finan-         “The OCC does not tolerate
banks rose from historical lows.      cial consumer protection laws and        discrimination in lending in any
Moreover, a rising number of          regulations, the OCC introduced          form,” said Ann Jaedicke, the
supervisory issues were serious       a new pilot program to better            OCC’s Deputy Comptroller for
enough to require formal enforce-     identify disparities related to fair     Compliance Policy. “Improve-
ment action, including written        lending risk.                            ments in our processes for fair
agreements, cease-and-desist                                                   lending examinations will help us
orders, and prompt corrective         The Home Mortgage Disclosure             better enforce fair lending laws for
action directives. (Data on OCC       Act (HMDA) requires financial            all Americans.”


                                                                       Section One: Year of Crisis and Correction	   13
                                                                                      Revitalizing Housing
Strengthening Communities                                                             Finance
in Troubled Times                                                                     Essential to the stabilization of
                                                                                      the financial system were actions
Since its enactment in 1977, the Community Reinvestment Act (CRA)                     designed to address the proxi-
has helped bring billions of dollars in lending and investment to the                 mate causes of the crisis: declin-
country’s neediest communities. Nonetheless, some blame CRA for the                   ing house prices, rising mortgage
collapse of the subprime mortgage market. Comptroller Dugan cat-                      delinquencies and foreclosures,
egorically rejected such suggestions, pointing out that loans made by                 and consequent losses to lenders.
institutions for CRA purposes performed as well as or better than non-                National banks avoided the riskiest
CRA loans and much better than mortgage loans by lenders not subject                  of the subprime lending that fueled
to CRA requirements.                                                                  the bubble, but no financial institu-
                                                                                      tion was immune from the fallout.
Government programs are helping banks address the credit needs of                     The housing crisis also caused
struggling neighborhoods and small businesses while operating in                      widespread personal hardship and
a safe and sound manner. In one such program, the Small Business                      damaged public confidence in the
Administration partners with lenders to finance small business plant                  financial system.
and equipment; program enhancements extended support to new and
existing assets, allowing businesses to refinance and restructure eligible            Reviving the housing markets
debt. Incentives such as these helped persuade many banks that had not                depended, in part, on unclogging
made a Small Business Administration loan in many years to partici-                   the credit channels that normally
pate in the program once again.                                                       sustain it. This effort advanced
                                                                                      on several fronts. New Federal
The credit crisis caused a significant dip in investment in affordable                Reserve programs provided bil-
housing. Investments in low-income housing tax credits by banks and                   lions of dollars in liquidity for
other corporate investors were projected to drop by more than half in                 housing finance. In November
2009. The OCC is working to acquaint bankers, through nationwide                      2008, the OCC joined other federal
seminars, local outreach, and its publications program, with opportuni-               agencies in reminding banks of
ties to leverage new and existing federal funding and financing tools                 their responsibility to meet the
to help rehabilitate and reuse foreclosed single family housing. Such                 needs of creditworthy borrowers.
activities not only help stabilize communities and protect existing                   The interagency statement noted
investments but may also qualify the bank for CRA consideration.                      that programs like TARP were
                                                                                      “designed to help support respon-
                                                                                      sible lending activities of banking
                                                                                      organizations, enhance their ability
                                                                                      to fund such lending, and enable
                                                                                      banking organizations to better
                                                                                      meet the credit needs of house-
                                                                                      holds and businesses.” Yet, with
                                                                                      many businesses and households
                                                                                      rebuilding their balance sheets, it
                                                                                      was especially important for banks
                                                                                      to reaffirm their commitment
                                                                                      to sound underwriting and risk
                                                                                      management practices. Timothy W.
                                                                                      Long, the OCC’s Senior Deputy
                                                                                      Comptroller for Bank Supervision
                                                                                      Policy and Chief National Bank
Comptroller Dugan inspects an affordable housing project in Dallas, Texas.            Examiner, conveyed this message

14	      Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
in March 2009 to the U.S. House         higher capital requirements. By the         As discussed in last year’s Annual
Committee on Financial Services.        end of the fiscal year, 27 servicers,       Report, the OCC and OTS collect
In the course of their supervisory      responsible for handling more               and publish detailed mortgage-
activities, OCC examiners worked        than 85 percent of all mortgage             loan performance data in their
to ensure that national banks           loans, participated in the Home             quarterly Mortgage Metrics
understood that message.                Affordable Modification Program.            Report. The report provides data
                                                                                    on more than 35 million loans, or
Helping Struggling                      Meeting the demand for loan                 60 percent of all mortgages ser-
Homeowners                              modifications through the Home              viced in the United States.
The search for fair and effective       Affordable Modification Program
ways to help homeowners facing          and lenders’ proprietary loan               In light of the emerging focus on
foreclosure, while also protect-        modification programs posed                 loan modifications, the agencies
ing the interests of taxpayers and      an enormous challenge. Bank                 expanded their data-gathering
investors, was one of the year’s        systems could not keep pace                 activities to include trends in
most ambitious and important            with borrowers seeking modi-                the types of modifications being
activities. A succession of private     fications, but with experience              undertaken by servicers and how
and government-sponsored initia-        lenders gradually improved                  those modifications affected bor-
tives launched during the year to       their ability to handle consumer            rowers’ payments and behavior.
provide mortgage modifications          demand. Additional resources                The data showed that while loan
that could prevent foreclosure and      were deployed to enable ser-                modifications increased in num-
keep borrowers in their homes.          vicers to process applications in           ber, their performance improved
                                        a timely manner, although chal-             only slightly; more than half of
Two new Treasury Department             lenges remain. Still, foreclosures          the loans modified were 30 or
programs were established for at-       mounted, and there was a pressing           more days delinquent after six
risk homeowners:                        need to identify the characteristics        months. The conclusion was that
                                        of a successful loan modification,          the best performing modifications
The Home Affordable Refinance           that is, on the specific provisions         were those that resulted in the
Program provides refinancing            that most increase the likelihood           biggest reductions to borrowers’
assistance to homeowners with           that a modification would work to           monthly payments. Drawing on
loans owned or guaranteed by            keep borrowers in their homes.              this evidence, mortgage servicers
Fannie Mae or Freddie Mac.

The Home Affordable
Modification Program helps at-
risk homeowners by providing a
framework for consistent handling
of loan modifications.

The OCC participated in efforts to
craft balanced guidelines and guid-
ance for lenders in connection with
these programs. In June 2009, the
banking agencies issued an interim
final rule providing that mortgages
modified under this program qualify
for the same capital treatment as the
same loan before modification, an
incentive for institutions concerned
that restructured loans would entail    OCC volunteers assist in a Washington, D.C., neighborhood landscaping project.


                                                                            Section One: Year of Crisis and Correction	   15
Reverse Mortgages: Taking a
Cautious Approach
Reverse mortgages are loans that let homeowners tap their equity to
receive lump sum or periodic payments for as long as they stay in their
homes. These loans became increasingly attractive, especially for older
homeowners who saw them as a way to replace investment and other
income lost in a down economy. But as Comptroller
Dugan told the regulatory compliance conference of the
American Bankers Association in June 2009, while such
mortgages may offer real benefits, they also possess
“some of the same characteristics as the riskiest types
of subprime home mortgages,” including high fees,
complex terms, and the potential for abuse of vulnerable
borrowers.

These characteristics made it imperative, he said, that
reverse mortgage customers receive robust consumer
protection. To that end, the OCC and the other bank-
ing agencies issued guidance on reverse mortgages to
ensure that those useful products are marketed honestly,
explained clearly, and not used for predatory purposes.


began to shift their approach,                Toward a More Safe and                 liquidity risk management. As
modifying more loans that                     Secure Financial System                Senior Deputy Comptroller and
resulted in significant payment               The year’s events prompted inten-      Chief National Bank Examiner
reductions. Although mortgage                 sified study on the structure and      Tim Long testified before a
delinquencies and foreclosures                practice of banking and financial      subcommittee of the U.S. House
continued to rise in the third quar-          services regulation. The Joint         Banking Committee in March
ter, home retention actions were              Forum, a global body of senior         2009, bankers and bank supervi-
up significantly, and more than 78            banking, securities, and insurance     sors clearly underestimated liquid-
percent of all new mortgage modi-             supervisors chaired by Comptroller     ity risk exposures when the crisis
fications resulted in a reduction in          Dugan, focused on improving the        began. He pointed out that they did
borrowers’ monthly principal and              regulation of financial conglomer-     not have adequate plans in place
interest payment.                             ates. The OCC also contributed to      to cope with funding interruptions
                                              studies by the Financial Stability     as dramatic as those that occurred.
Improved communications among                 Forum, the Senior Supervisors          To address this, the OCC intro-
mortgage services and between                 Group, and the Basel Committee         duced a program for its large-bank
servicers and regulators was one              on Banking Supervision; helped         population that included intensified
of the most important outcomes                develop recommendations on how         monitoring of bank liquidity, stan-
of the collaboration that went                future crises might be avoided; and    dardization of liquidity measures
into the OCC and OTS Mortgage                 implemented many of those rec-         across institutions, and evaluation
Metrics reports. That communica-              ommendations into its own super-       of banks’ liquidity cushions and
tion facilitated the development              visory policies and procedures.        contingency plans in the regular
of loan-default management                                                           course of their OCC supervision.
practices in the best interests of            A strong consensus emerged on          In June 2009, the federal banking
lenders and borrowers.                        the importance of improving            agencies released for public


16	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
                                       borrower. The federal banking              of the leverage ratio—a pure
                                       agencies adopted a revised capital         non-risk-weighted capital mini-
                                       regime for larger, more complex            mum—for countries that, unlike
                                       banks called Basel II, which is            the United States, do not have
                                       designed to make capital calcu-            such a backstop in place already.
                                       lations more accurate and more             The OCC and other U.S. banking
                                       sensitive to the risk to which banks       agencies are preparing to consider
                                       were exposed. No U.S. banks were           the adoption of these and other
                                       yet operating under the new regime         changes to the Basel II framework
                                       when the financial crisis struck.          for U.S. institutions through the
                                                                                  notice and comment process.
                                       In July 2009, members of the
                                       Basel Committee on Banking                 If capital is the bedrock of a bank’s
Senior Deputy Comptroller and Chief    Supervision—including the                  safety and soundness, loan loss
National Bank Examiner Tim Long
discusses the OCC’s approach to        OCC—announced a series of                  reserves are “a front line of defense
bank supervision in testimony on       measures designed to strengthen            for absorbing credit losses before
credit availability.
                                       capital requirements for certain           capital must do so,” as Comptroller
                                       activities, mitigate excess cyclical-      Dugan said. Yet the financial crisis
comment the proposed Interagency
                                       ity, and promote a more forward-           reemphasized a longstanding con-
Guidance on Funding and
                                       looking approach. Risk weights             cern with the way banks reserve
Liquidity Risk Management, which
                                       for some securitized assets were           against potential loan losses.
would bring the agencies’ liquidity
                                       increased, as were capital require-        “Perversely,” the Comptroller said
principles into conformance with
                                       ments to capture the credit risk           in a March 2009 speech to the
the international guidance issued
                                       of complex trading activities.             Institute of International Bankers,
by the Basel Committee.
                                       Banks were called on to conduct            “as the banking industry experi-
                                       more rigorous credit analysis of           enced a prolonged period of rising
Capital and Reserves:
                                       off-balance-sheet activities. And          and record profits in the booming
Strengthening the
                                       the Basel Committee on Banking             part of the economic cycle in the
Foundation
                                       Supervision emphasized the value           earlier part of this decade, the ratio
The financial crisis highlighted
the critical role of bank capital as
a bulwark against loss and insol-
vency. For more than two decades,
U.S. banks have operated under a
risk-based capital regime, based on
the international framework estab-
lished by the Basel Committee
on Banking Supervision. That
framework assigns risk weights
to each asset on a bank’s balance
sheet, which determines how much
capital the bank must hold against
that asset. For example, cash and
U.S. government securities, which
are viewed as essentially risk-free,
require no capital, while corporate
loans entail a capital charge that
varies according to the terms of the
loan and the quality of the            Comptroller Dugan addresses the American Bankers Association on the lessons of
                                       the financial crisis.


                                                                          Section One: Year of Crisis and Correction	   17
The OCC Fights Mortgage Fraud

In addition to providing sustainable mortgage
restructuring and foreclosure relief, the OCC
raised awareness of foreclosure “rescue” scams
and refinance fraud. Aided by authority granted in
the Fraud Enforcement and Recovery Act of May
2009, a number of federal and state departments
and agencies teamed up to coordinate resources
and information, alert financial institutions to
new unlawful schemes, step up enforcement
actions against violators, and teach consumers
how to recognize fraudulent assistance programs.

The OCC played a prominent role in this government-wide effort. In April 2009, the agency issued a con-
sumer advisory on the tactics being used to exploit struggling homeowners. The advisory was reinforced by
a series of public service announcements that ran on radio stations and in newspapers around the country.
These communications provided tips on reducing the likelihood of becoming a con artist’s next victim. The
OCC advised consumers to be extremely cautious when dealing with people purporting to be mortgage or
foreclosure consultants who demand up-front fees; to make mortgage payments only to the mortgage servicer
unless the servicer agrees otherwise; and, most of all, to read and understand every document before signing.




U.S. Supreme Court Decision on the Dual
Banking System

Fiscal year 2009 saw important developments in the evolving relation-
ship between state and federal banking authorities.

On June 29, the U.S. Supreme Court delivered its decision in the case
of Cuomo v. Clearing House Association. The case involved an attempt
by the New York State Attorney General to obtain non-public infor-
mation from national banks in connection with an investigation over
alleged fair lending violations. The banks and the OCC argued that the state’s demand was an illegal encroach-
ment on the OCC’s exclusive “visitorial” powers to inspect, examine, supervise, and regulate.

The Supreme Court agreed with the OCC that the New York Attorney General could not proceed as he had
attempted to do but clarified the scope of the OCC’s exclusive visitorial powers and concluded that those powers
would not block a state law-enforcement official from bringing an action in court against a national bank to enforce
an applicable state law.

The Cuomo ruling represented the Supreme Court’s latest effort to clarify the federal-state relationship and
maintain the equilibrium that has been the hallmark of the dual banking system for nearly 150 years.


18	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
                                                                                Protection Agency that would
                                                                                assume responsibility from the
                                                                                banking agencies for consumer
                                                                                compliance supervision and rule-
                                                                                making. The proposal also called
                                                                                for consolidation of the OCC and
                                                                                the OTS.

                                                                                As variants of the Treasury
                                                                                Department proposal emerged over
                                                                                time, the OCC and Comptroller
                                                                                Dugan sought to focus on core
                                                                                principles: the inextricable
                                                                                connection between bank safety
                                                                                and soundness and consumer
                                                                                protection, the indispensable role
of loan loss reserves to total loans   in regard to the nonregulated or         of the prudential supervisor in any
went down, not up—even though          lightly regulated off-balance-sheet      regulatory regime, the avoidance
there was broad recognition that       vehicles, investment banks, and          of redundancy and regulatory
the cycle would soon have to turn      nonbank mortgage brokers and             overlap, and the need for uniform
negative.” When it did, and loan       originators, where many of the           standards applicable to all
losses started rising, bankers who     problems began.                          financial providers. In particular,
were under-reserved had to drasti-                                              Comptroller Dugan spoke to the
cally increase provisions through      The Treasury Department’s com-           importance of preserving the prin-
withdrawals from capital.              prehensive proposal for regula-          ciple of uniform national standards
                                       tory restructuring, released in          for financial products and services
Comptroller Dugan, who co-             June 2009, touched off a vigorous        offered across state lines in
chairs a working group of the          national discussion on what a new        national markets—a principle that
Financial Stability Board focused      regulatory structure should look         has been central to the economic
on reserve policies, suggested a       like. One provision called for cre-      prosperity of the United States
better way. He proposed giving         ation of a Consumer Financial            throughout its history.
bankers the flexibility to use more
forward-looking estimates of loan
losses than is possible under the
current rules, which require that
provisions be limited to losses that
can be documented as “already
incurred.” He also called for an
adjustment in regulatory policy
to qualify loan loss reserves for
more favorable treatment as a part
of banks’ capital structure, giving
bankers greater incentive to add to
their reserves.

Regulatory Restructuring
The financial downturn highlighted
gaps in the U.S. financial regula-
tory structure, particularly

                                                                        Section One: Year of Crisis and Correction	   19
“ we
  Sir, we cannot maintain our nationality unless
      establish a sound and stable financial system.
                                                       “

   —Senator John Sherman, debate on the
   	 National Currency Act, February 10, 1863
Section Two: Condition of the
National Banking System
The combination of financial crisis and economic recession cut sharply into bank earnings in 2009. Provision
expenses, which again rose much faster than revenues, were the most important factor that depressed earnings.
Sharply higher credit losses, which began in consumer lending, extended to business lending as well, and
charge-off rates reached post-1990 highs for most loan categories. The industry’s overall charge-off rate
was on course to see its highest level since 1934.

In the first two quarters of 2009,       by 78 percent over the same                quickly. Even with much higher
net income at national banks             period in 2008. After rising first         provisioning, reserves have not
recovered from the low level of          for loans related to residential real      kept pace with deteriorating credit
the fourth quarter of 2008, yet          estate, losses increased for busi-         quality as the ratio of reserves
remained 53 percent below the            ness loans as well. For example,           to noncurrent loans has fallen
level of a year earlier. Profitability   in the first half of 2009, charge-         steadily for four years.
as measured by return on equity          offs on commercial and industrial
stood at 0.3 percent for the second                                                 Revenue
quarter of 2009, slightly up from                                                   At the largest national banks, net
its low in the fourth quarter of                                                    interest income rose by 5 percent
2008 but still near its 35-year low.                                                in the first half of 2009 from the
At community banks, return on                                                       same period in 2008, as rising net
equity continued to fall through the                                                interest margins more than offset
first half of 2009.                                                                 a fall in earning assets. Net inter-
                                                                                    est margins rose because of the
Loan Loss Provisions and                                                            steep drop in funding costs pro-
Credit Quality                                                                      vided by lower interest rates and
Higher loan loss provisions                                                         strong flows of low-cost deposits.
have been the largest factor behind                                                 At smaller banks, margins fell
reduced earnings. With the noncur-       loans increased by 170 percent             but assets rose modestly, result-
rent loan rate reaching its highest      from the same period a year                ing in flat net interest income.
level in at least 25 years, provision    earlier, compared with 56 percent          Because net interest income is a
expenses at national banks surged        for real estate loans, although the        large share of revenues for these
from $15 billion in the first half       level of real estate charge-offs           smaller banks, the result was
of 2007 to $89 billion in the first      was much higher.                           weak growth in net income.
half of 2009. Over the same period,
pre-provision revenues, net of           By mid-2009, charge-off rates for          At the largest national banks, non-
expenses (operating profit)              all major loan categories except           interest income rose in the first
grew only modestly, resulting in a       commercial real estate had reached         half of 2009, as trading revenue
drop in after-tax net income from        post-1990 highs. Charge-off rates          recovered from a massive fourth-
$47 billion to $6 billion.               are expected to remain high at             quarter loss. Noninterest income
                                         least through 2010, with the rate          also received an early-year boost
Credit losses continued to rise in       for commercial real estate loans           from a wave of mortgage refi-
the first half of 2009, increasing       anticipated to increase particularly       nancing, which helped servicing


                                                                Section Two: Condition of the National Banking System	   21
and fee income rise from the                  in the first quarter, although this     as bonds and equities, to the
previous year. Large banks sold               volatile income stream subsided         relative safety of bank deposits.
many of the refinanced loans                  in the second quarter. Noninterest      In this downturn, noninterest
to the government-sponsored                   income also rose at smaller banks,      bearing deposits have increased,
enterprises, with gains on loan               though it makes up only a minor         especially for large banks, giv-
sales further adding to profits.              share of their revenues.                ing them a significant funding
The income boost from the spurt                                                       cost advantage; small banks have
in refinancings continued into the             Funding and Loan Growth                not benefited to the same extent.
second quarter, but this source                Core deposits generally flow           The surge in noninterest-bearing
of revenue growth then declined.               into banks during recessions, as       deposits, which began at the end
Large banks also benefited from                savers turn away from low yields       of 2008, continued in 2009. Much
strong gains in trading income                 on more risky assets, such             of this swing was a direct result of
                                                                                      the financial crisis, as households
Figure 1: Strong Revenues in First Half of 2009 Offset High Provision                 and firms fled money market funds
Expenses (in Billions)                                                                and other short-term alternatives
                                                                                      in favor of deposits at banks.
                                                                                      Historical experience has shown
                                                                                      that recessions accompanied by
                                                                                      financial crises last longer and
                                                                                      run deeper than other recessions.
                                                                                      Following this financial crisis,
                                                                                      consumers are still deleverag-
                                                                                      ing, driving down household debt
                                                                                      from historically high levels, and
                                                                                      trying to rebuild their savings.
                                                                                      This implies slower-than-usual
                                                                                      growth in consumer spending (and
                                                                                      borrowing), even as the economy
                                                                                      in the aggregate begins to grow
Source: Integrated Banking Information System (OCC).
                                                                                      again. Moreover, business spend-
                                                                                      ing ordinarily lags behind con-
                                                                                      sumer spending coming out of
Figure 2: Noncurrent Loans in 2009 Reach Highest Level in 25 Years
                                                                                      recessions. With consumers still
                                                                                      nervous about their jobs and still
                                                                                      trying to rebuild their savings, a
                                                                                      turnaround in business spending
                                                                                      could come later than usual this
                                                                                      cycle. Further, large and medium-
                                                                                      size firms can continue to go to the
                                                                                      bond markets to lock in low-rate,
                                                                                      long-term financing, bypassing
                                                                                      the banks—though sub-investment
                                                                                      grade corporations still face some
                                                                                      resistance in issuing new bond
                                                                                      debt at reasonable interest rates.
                                                                                      For banks, these trends mean that
                                                                                      loan growth on both the consumer
Source: Integrated Banking Information System (OCC).                                  and business sides could remain
Note: The green bars represent periods of economic recession.                         weak for some time.


22	      Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
The strength and sustainability of            near zero, further large declines              higher yields elsewhere. Such
the economic recovery will be the             in funding costs are unlikely.                 a combination of events could
key factor driving loan demand in             Indeed, if a weak recovery sup-                compress net interest margins,
the near term.                                presses loan demand and interest               making it difficult for banks to
                                              rates stay low, low-cost nonin-                find the additional net interest
In the recovery from the 1990-                terest-bearing deposits could                  income needed to offset contin-
1991 recession, banks were able               exit the banking system, seeking               ued high levels of provisions.
to increase net interest income
even as their earning assets
(mostly loans) fell. The Federal
Reserve continued to lower short-             Figure 3: Ratio of Reserves to Noncurrent Loans Continues to Decline,
term interest rates significantly             Even With Increased Provisioning
in the early years of the recov-
ery, though loan losses remained
elevated and total lending was on
the decline. Falling rates led to
a strong upswing in net interest
margins that more than made up
for the decline in earning assets.
Even facing large credit losses,
banks were still able to grow their
way back to health.

That scenario seems less likely to
repeat itself in this recovery. With
short-term interest rates already
                                              Source: Integrated Banking Information System (OCC).
                                              Note: The green bars represent periods of economic recession.


Figure 4: Loans on Balance Sheets of National Banks (in Billions)




Source: Integrated Banking Information System (OCC).



                                                                        Section Two: Condition of the National Banking System	   23
“Under  this system of banking, every bank is under
 the watchful eye of the Comptroller of the Currency.
  The banks are as accessible to him as they would be if
                                               “
  all were placed under the same roof.


  — Silas M. Stillwell, “Private History of the Origin and Purpose
  	 of the National Banking Law,” 1879
Section Three: Executive Leadership

  John C. Dugan
  Comptroller of the Currency

John C. Dugan was sworn in as        regulators from the United States,
the 29th Comptroller of the Cur-     Canada, Europe, Japan, and
rency in August 2005.                Australia and deals with issues
                                     common to the banking, insur-
The Comptroller of the Currency      ance, and securities indus-
is the administrator of national     tries, including supervision of
banks and chief officer of the       conglomerates.
OCC. The OCC supervises 1,565
federally chartered commercial       Before his appointment as
banks and 51 federal branches and    Comptroller, Mr. Dugan was
agencies of foreign banks in the     a partner at the law firm of            From 1985 to 1989, Mr. Dugan
United States, comprising more       Covington & Burling, where              was Counsel and Minority
than two-thirds of the assets of     he chaired the firm’s Financial         General Counsel for the U.S.
the commercial banking system.       Institutions Group and specialized      Senate Committee on Banking,
The Comptroller also is a director   in banking and financial institu-       Housing, and Urban Affairs.
of the Federal Deposit Insurance     tion regulation.                        There, he advised the Committee
Corporation and NeighborWorks®                                               as it considered the Competitive
America.                             He served at the U.S. Department        Equality Banking Act of
                                     of the Treasury from 1989 to            1987, the Proxmire Financial
In September 2007, Comptroller       1993 and was appointed Assistant        Modernization Act of 1988, and
Dugan was named Chairman of          Secretary for Domestic Finance          the Financial Institutions Reform,
the Joint Forum, which oper-         in 1992. While at the Department        Recovery, and Enforcement Act
ates under the aegis of the          of the Treasury, Mr. Dugan had          of 1989.
Basel Committee on Banking           extensive responsibility for policy
Supervision, International           initiatives involving banks and
Association of Insurance             financial institutions, including
Supervisors, and the International   the savings and loan cleanup,
Organization of Securities           Glass-Steagall and banking
Commissions. The Joint Forum         reform, and regulation of govern-
includes senior financial sector     ment-sponsored enterprises.




                                                                           Section Three: Executive Leadership	   25
      Thomas R. Bloom
      Senior Deputy Comptroller
      Management and Chief Financial Officer

Thomas R. Bloom joined the OCC                  system. Mr. Bloom established the
in December 2003 as Senior Deputy               Chief Financial Officer function of
Comptroller for Management and                  that new organization and served
Chief Financial Officer.                        as interim Chief Financial Officer
                                                there until January 2009.
Mr. Bloom has responsibility for
the OCC’s planning and financial                Before joining the OCC, Mr. Bloom
management and human resources                  was the director of the Defense
functions, including diversity pro-             Finance and Accounting Service.
grams and management services.                  In that capacity, he supervised the        to programs and operations for the
                                                day-to-day accounting and finance          department.
He serves as a member of the                    activities of the U.S. Department of
OCC’s Executive Committee,                      Defense. The Defense Finance and           From 1988 to 1993, Mr. Bloom was
as the Chair of the Budget and                  Accounting Service employs about           a Senior Audit Partner, Director
Finance Subcommittee, as the                    15,000 Department of Defense               of Governmental Services, and
Co-Chair of the Investment                      civilian and military personnel at         Co-Chair of Financial Institution
Review Board, and as a member of                26 locations throughout the United         Practice with the national certified
the Technology and Human Capital                States, Europe, and the Pacific.           public accounting firm Kenneth
subcommittees. Additionally, he                                                            Leventhal & Company in its
chairs the OCC 401(k) Investment                Mr. Bloom has extensive expe-              Dallas, Texas, and Washington,
Board.                                          rience in finance and account-             D.C., offices. Advancing from an
                                                ing, having served as Chief                accounting fellow and later the
In October 2008, Mr. Bloom was                  Financial Officer at both the U.S.         Chief Accountant for the Federal
asked to serve as the interim Chief             Department of Commerce and the             Home Loan Bank System from
Financial Officer for the new Office            General Services Administration.           1985 to 1988, Mr. Bloom became
of Financial Stability, an office                                                          the Senior Accounting and Auditing
within the U.S. Department of the               He also served as the Inspector            Authority for regulation of the
Treasury created to oversee the                 General at the U.S. Department             troubled thrift industry. From 1976
Troubled Asset Relief Program and               of Education, where he conducted           to 1985, Mr. Bloom was associated
other emergency authorities and                 audits and investigations, man-            with two international account-
facilities to help restore liquidity            aged fraud-control programs, and           ing firms, rising from junior staff
and stability to the U.S. financial             designated security services related       accountant to partner.


      Office of Management

The Senior Deputy Comptroller directs the Office of                     and minimize the resource impact of the Office of
Management and serves as the OCC’s Chief Financial                      Management’s programs. The office
Officer. Striving for an environment of continuous
improvement, the Office of Management delivers                          Meets the OCC’s human resources needs by
responsive, best-value business solutions to those                      •	 Staffing positions
who ensure public confidence in the national banking                    •	 Managing national recruitment programs
system. Our goal is to maximize direct mission hours                    •	 Managing employee retention programs

26	       Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
•	 Brokering short-term staffing needs                     Protects people and assets by
•	 Managing the performance management process             •	 Managing physical and personnel security
                                                           •	 Managing the emergency preparedness program
Acquires OCC assets by                                     •	 Managing its Equal Opportunity Employment
•	 Managing the acquisition process to procure goods          program
   and services                                            •	 Managing the financial resources and budgeting
•	 Collecting OCC revenues and managing its cash              program
                                                           •	 Evaluating the OCC’s financial controls
Moves staff to new locations by
•	 Managing the staff relocation process                   Compensates employees by
•	 Administering the travel program                        •	 Managing the compensation program
                                                           •	 Managing the employee benefits programs
Houses staff by                                            •	 Managing the time-reporting and payroll process
•	 Designing and building out leased space                 •	 Reimbursing travel expenses
•	 Administering leases and managing OCC facilities
•	 Arranging space and logistics for OCC conferences       Manages vendor relationships by
   and meetings                                            •	 Managing OCC contracts
                                                           •	 Paying invoices
Develops staff by
•	 Assessing training needs                                Informs management by
•	 Developing training programs                            •	 Providing financial reports
•	 Delivering training programs                            •	 Managing the financial audit
                                                           •	 Providing information and researching issues




  Jennifer C. Kelly
  Senior Deputy Comptroller
  Midsize/Community Bank Supervision

Jennifer C. Kelly assumed the          and Credit Card Bank Supervision,
position of the Senior Deputy          where she was responsible for
Comptroller for Midsize/               supervision and oversight of the
Community Bank Supervision in          OCC’s Midsize and Credit Card
April 2008.                            Bank Supervision programs.
                                       Before that, Ms. Kelly served as the
Ms. Kelly is responsible for the       Deputy Comptroller for Continuing
OCC’s Midsize/Community Bank           Education, with responsibility for
program, supervising more than         the training and development of the
1,500 banks and about 1,600            OCC’s examining staff.
employees. She is a member of the
OCC’s Executive Committee and          Ms. Kelly joined the OCC in 1979         including extensive experience
the OCC’s Committee on Bank            as an Assistant National Bank            in problem bank supervision and
Supervision.                           Examiner in San Francisco and            policy development. Also, she
                                       was commissioned as a National           completed a year-long assignment
Previously, Ms. Kelly served as        Bank Examiner in 1983. She has           in the Bank of England’s bank
Deputy Comptroller for Midsize         a broad supervision background,          supervision department in London.

                                                                              Section Three: Executive Leadership	   27
      Midsize/Community Bank Supervision

Midsize/Community Bank Supervision supervises                                support for actions taken in all banks; and tailor
more than 1,500 nationally chartered banks and trust                         appropriate oversight to all national banks.
companies. Community bank operations are overseen                       •	   Focus supervisory attention on banks’ abilities to
by examiners who report to Deputy Comptrollers                               develop sound enterprise-wide practices and effec-
located in four district offices—New York, Chicago,                          tively manage all relevant risks.
Denver, and Dallas. A fifth Deputy Comptroller                          •	   Proactively assess and address the capabilities of
oversees a national portfolio of midsize banks with                          management and the sufficiency of capital based on
assets exceeding $10 billion, either in a single charter                     banks’ risk profiles.
or aggregated among several charters. Midsize banks                     •	   Identify banks that may be vulnerable to existing or
are defined by the size of their markets, which can be                       emerging risks using supervisory analytical tools,
multistate or regional, and the scope of their opera-                        filters, and risk-based analytics.
tions. Full-time Examiners-in-Charge supervise                          •	   Address supervisory issues in banks with portfolios
these banks continuously. The Deputy Comptrollers                            affected by adverse economic and market conditions
report to the Senior Deputy Comptroller for Midsize/                         and take actions to resolve problem bank situations
Community Bank Supervision, who is located at the                            effectively and on a timely basis.
OCC’s headquarters in Washington, D.C.                                  •	   Encourage banks to continue to meet the needs
                                                                             of creditworthy borrowers and comply with the
The Midsize/Community Bank Supervision                                       Community Reinvestment Act, fair lending, and
Department’s primary objectives are to                                       other consumer protection laws.
•	 Develop individual bank supervisory strategies that                  •	   Ensure that Troubled Asset Relief Program recipi-
   use risk-based principles to efficiently supervise                        ents comply with all applicable program restrictions
   banks; present clear and logical plans for the scope                      and requirements.
   of activities, documentation of conclusions, and




      Mark Levonian
      Senior Deputy Comptroller
      Economics

Mark Levonian is Senior Deputy                  Reserve Bank of San Francisco
Comptroller for Economics. He                   from 1990 to 1997 and was the
joined the OCC in 2004 as Deputy                managing officer of the Banking
Comptroller for Modeling and                    Studies Department at the Federal
Analysis and is a member of the                 Reserve Bank of New York from
OCC’s Executive Committee.                      1987 to 1990. In 1992, he worked
                                                as senior economist at the Reserve
Mr. Levonian was Vice President                 Bank of Australia, where he
in Banking Supervision and                      conducted research and supported
Regulation at the Federal Reserve               development of a framework for                the areas of early identification of
Bank of San Francisco from 1997                 assessing capital for market risk at          problem banks and regulation of
to 2004 and a research officer and              Australian banks. He has provided             market risk and has consulted for
senior economist in the economic                technical advice to the central               the International Monetary Fund
research department of the Federal              banks of Russia and Belarus in                and the World Bank. He has

28	       Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
taught courses in capital markets       pricing, risk modeling, residential     validation, and the Basel II capital
and financial institutions at the       mortgages, market discipline in         framework.
University of California’s Haas         banking, capital allocation tech-
School of Business in Berkeley.         niques, agricultural lending, bank-     Mr. Levonian has a Ph.D. in eco-
                                        ing in transition economies, and        nomics from the Massachusetts
Mr. Levonian’s professional             resolution of problem banks. Most       Institute of Technology and a
research has resulted in publica-       recently, he has been a frequent        bachelor’s degree in economics
tions and presentations in various      speaker at industry conferences         from the University of California
areas including deposit-insurance       on risk quantification, model           at Berkeley.



  Economics


The Economics Department’s mission is to deliver           Data and Analytical Support Division develops and
economic and quantitative analysis to policymakers         manages information resources and platforms that sup-
and bank supervisors. Through its various divisions,       port research, analysis, and modeling; and implements
the department supports on-site and off-site supervi-      tools and techniques to support evolving methods of
sion of banks, provides current economic analysis,         analysis.
supports policy development, and conducts original
research to support the OCC’s mission.                     Risk Analysis Divisions—Enterprise, Credit,
                                                           Compliance, and Market are the four Risk Analysis
International Analysis and Banking Condition               Divisions that operate as a group within the Economics
Division provides analysis of economic and financial       Department. The four divisions’ major functions
market developments that may pose systemic risks           include providing direct support to examiners and
for national banks, reports quarterly on the condition     policymakers on risk modeling, decision modeling, and
of the national banking system, produces analysis          modeling to detect compliance with fair lending laws;
to support the formulation and implementation of           developing models and tools for use by examiners;
supervisory policy focused on internationally active       consulting with examiners and policymakers; deliver-
national banks and federal branches, administers the       ing educational outreach and training for examiners;
Interagency Country Exposure Review Committee,             and conducting original research and analysis to sup-
and provides ongoing support to the OCC’s National         port these primary functions.
Risk Committee.
                                                           Policy Analysis Division provides short-term analy-
Industry and Regional Analysis Division informs            ses and conducts longer-term research on public
agency management and bank supervision of emerg-           policy issues related to banking. The division pre-
ing issues across a broad range of credit risks in the     pares research papers, memorandums, and briefing
banking system, provides tools to support credit risk      documents; provides analytical consulting services to
assessments in bank portfolios, and provides regional      departments throughout the OCC; and prepares eco-
assessments of changing economic conditions and the        nomic analyses of the effect of regulations on banks
implications for national banks.                           and private sector entities.




                                                                              Section Three: Executive Leadership	   29
      Timothy W. Long
      Senior Deputy Comptroller
      Bank Supervision Policy and Chief National
      Bank Examiner

Timothy W. Long assumed                         2008, Mr. Long served as Senior
the position of Senior Deputy                   Deputy Comptroller for Midsize/
Comptroller for Bank Supervision                Community Bank Supervision.
Policy and Chief National Bank
Examiner in April 2008.                         Previously, he served as Deputy
                                                Comptroller for Large Bank
Mr. Long is a member of the                     Supervision and held field
OCC’s Executive Committee,                      positions in the Western and
is Chairman of the OCC’s                        Southwestern Districts. He was
Committee on Bank Supervision,                  also a member of the Multinational
and is responsible for formulat-                Banking Division, where he
ing policies and procedures for                 served as Examiner-in-Charge of
supervision and examination of                  NationsBank, Wells Fargo Bank,
national banks. From 2002 to                    and First Interstate Bank.



      Bank Supervision Policy and Chief National Bank Examiner

The Office of the Chief National Bank Examiner                          •	 Coordinating, with the staff of Continuing Education
is dedicated to developing consistent and effective                        and division sponsors, the development of all informa-
supervisory and accounting policy guidance and                             tion technology-related training for precommissioned
interpretation for examiners and bankers. The office                       examiners and examiners who perform information
coordinates the OCC’s participation in interagency and                     technology examinations at least 25 percent of the time.
international supervisory groups, including the Federal
Financial Institutions Examination Council, the                         Capital Policy Division staff is extensively involved
President’s Working Group, and the Basel Committee                      in interagency rulemaking efforts regarding Basel II
on Bank Supervision. The office encompasses a num-                      implementation and potential changes to the domestic
ber of risk units.                                                      risk-based capital framework for non-Basel banks and
                                                                        is responsible for
Bank Information Technology Division is unique in                       •	 Identifying issues and developing policies to address
that it has policy and supervisory office responsibili-                    risks to bank capital.
ties. Division staff is responsible for                                 •	 Developing and maintaining capital regulations and
•	 Developing and issuing information technology-                          interpretations.
   related policy, guidance, and examination proce-                     •	 Developing dividend policy.
   dures for the bank information technology industry                   •	 Ensuring that capital policies are effectively com-
   and field examiners.                                                    municated and implemented.
•	 Assisting examiners in consistently applying informa-                •	 Providing technical assistance to examiners, bank-
   tion technology-related policy and guidance to all banks.               ers, and advisors on risk-based capital issues.
•	 Supervising the largest technology service provid-                   •	 Coordinating the work of the OCC’s Capital
   ers included in the Multi-Regional Data Processing                      Steering Committee, most of which is done in close
   Servicers program and the performance of Shared                         collaboration with other units of the OCC and other
   Application Software Reviews.                                           U.S. and international regulatory agencies.

30	       Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
•	 Participating on interagency and international work-   Market Risk Division comprises two teams—bal-
   ing groups addressing numerous ongoing policy and      ance sheet management and asset management—
   implementation issues for Basel II.                    and maintains expert knowledge of industry prac-
                                                          tices, emerging issues, and trends in balance sheet
Commercial Credit Risk Division staff maintains           management and asset management. Division staff
expert knowledge of industry practices, emerging          also is responsible for:
issues, and trends in commercial credit and is respon-    •	 Identifying and analyzing areas of significant risk.
sible for                                                 •	 Developing policy or changes in policy.
•	 Identifying and analyzing areas of significant risk.   •	 Implementing policy and conducting follow-ups to
•	 Developing the OCC’s supervisory policy.                  ensure its effectiveness.
•	 Developing industry advisories and policy guidance     •	 Serving as a consultant to senior OCC management,
   for bankers and examiners.                                field staff, attorneys, and bankers.
•	 Advising the OCC’s senior management.                  •	 Representing the OCC on interagency working groups.

Compliance Policy Department staff provides               Office of the Chief Accountant develops and pub-
guidance to the banking industry and to examiners         lishes policy guidance on bank accounting issues and
to promote compliance with consumer protection            is responsible for
laws, the Community Reinvestment Act, fair lending        •	 Coordinating accounting and financial reporting
laws, Bank Secrecy Act, and anti-money laundering            issues, including call report requirements.
laws. The staff also develops tools to assist the OCC     •	 Interpreting and developing guidance on gener-
in assessing risks related to consumer protection, the       ally accepted accounting principles related to
Community Reinvestment Act, fair lending, and anti-          banking, and identifying emerging accounting
money laundering. The staff also is responsible for          issues.
•	 Developing and maintaining examination proce-          •	 Working with the Financial Accounting Standards
   dures for use by field examiners.                         Board, the U.S. Securities and Exchange
•	 Identifying potential compliance risks and designing      Commission, and other banking agencies to
   responses.                                                develop generally accepted accounting principles.
•	 Representing the OCC at interagency meetings and       •	 Participating on the Basel Committee on Banking
   outreach events.                                          Supervision to seek harmonization of interna-
•	 Developing OCC bulletins on laws and regulation           tional accounting standards through work with the
   and OCC policy changes.                                   International Accounting Standards Board.
•	 Providing guidance to bankers, examiners, and
   industry trade groups on compliance issues.            Operational Risk Policy Division staff develops and
•	 Providing subject matter expertise in the develop-     publishes policy guidance on operational risk issues
   ment and delivery of training.                         and is responsible for
                                                          •	 Developing examination handbooks, OCC bul-
Financial Markets Group is responsible for                   letins, and other guidance relating to corporate
•	 Assessing trading and counterparty credit risks at        governance and audit practices, community and
   large trading banks.                                      large bank supervision-by-risk, insurance activi-
•	 Working with the National Risk Committee to iden-         ties, payments systems, de novo banks, and affili-
   tify areas of emerging risks.                             ate transactions.
•	 Maintaining contacts in financial markets (loans and   •	 Monitoring trends in operational risk exposures
   derivatives) to assess developments that may affect       and application of risk-based supervision prin-
   national banks.                                           ciples through analysis of trends in examination
•	 Serving as a consultant to senior OCC management          results.
   field staff, attorneys, and bankers on trading and     •	 Representing the Office of the Chief National Bank
   counterparty credit risk policies.                        Examiner on interdepartmental issues and working
•	 Representing the OCC on interagency working groups.       groups.

                                                                           Section Three: Executive Leadership	   31
•	 Developing, advising, and supporting efforts on                      in mortgage banking and securitization and in retail
   Basel II Operational Risk Implementation to include                  credit. Division staff is responsible for
   interagency alignment efforts, interdepartmental                     •	 Developing the OCC’s supervisory policy.
   coordination, on-site examination support, and reso-                 •	 Developing industry advisories and policy guidance
   lution of interpretive matters.                                         for bankers and examiners.
                                                                        •	 Providing staff assistance in support of district and
Retail Credit Risk Division comprises two teams—                           large bank supervision priorities and initiatives
(1) mortgage banking and securitization and (2) retail                     undertaken by other OCC departments.
credit. Division staff maintains expert knowledge                       •	 Providing advice to the OCC’s senior management.
in industry practices, emerging issues, and trends                      •	 Identifying and developing training for field staff.




      Bajinder N. Paul
      Chief Information Officer


Bajinder N. Paul was selected as                Mr. Paul has spent more than
the Chief Information Officer in                20 years managing information
October 2007.                                   technology programs and organiza-
                                                tions, in the private sector and in
As Chief Information Officer, Mr.               the federal government.
Paul leads all OCC information
technology programs, supporting                 Before joining the OCC, he served
the agency’s mission of ensur-                  as Acting Chief Information
ing the safety and soundness of                 Officer and Deputy Chief
national banks as well as fair and              Information Officer of Information
equal access to financial services              Technology Operations at the U.S.
for all Americans.                              Department of Housing and Urban             Mr. Paul held key information
                                                Development. While there, he                technology management posi-
He serves as a member of the                    provided strategic and operational          tions at the U.S. Department
OCC’s Executive Committee,                      leadership in delivering central-           of Justice and at the Bureau of
as the Chair of the Technology                  ized services to the entire agency          Alcohol, Tobacco, Firearms, and
and Systems Subcommittee, as                    to achieve goals and objectives to          Explosives. While at the latter
the Co-Chair of the Investment                  promote citizen access to services.         agency, Mr. Paul provided strate-
Review Board, and as a member                                                               gic, managerial, and operational
of the Enterprise Governance                    Prior to joining the Department of          oversight of information technol-
subcommittee.                                   Housing and Urban Development,              ogy services and solutions.



      Information Technology Services


Information Technology Services provides technology                     Business Services Delivery is the primary
products, services, and programs that help the OCC                      Information Technology Services service provider for
achieve its mission. Information Technology Services                    managing new and strategic information technology
consists of four primary units:                                         initiatives throughout their full information technology

32	       Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
life cycle. Business Services Delivery manages the          to the agency and integrating information security
agency’s enterprise architecture to ensure that new         into existing work processes.
investments align with business unit requirements.
The unit operates a series of internal programs, such       Information Systems is responsible for the operation
as enterprise testing, configuration management, and        and maintenance of individual software and enterprise
quality management to minimize errors in hardware           data solutions that support the OCC’s business unit
and software releases. It develops sourcing strategies in   objectives. The unit manages enterprise information
partnership with the OCC’s Acquisition Management           through the standardization and reuse of agency data
department for all major information technology ser-        and maintenance of corporate data repositories. It gath-
vices and technology procurements. Finally, Business        ers customer requirements, plans and deploys software
Services Delivery provides frontline customer sup-          enhancement projects, and maintains legacy applica-
port to all employees and business units for the OCC’s      tion and enterprise solutions.
standard personal computer desktops, laptops, and
applications.                                               Technical Infrastructure provides a secure, high-
                                                            availability data delivery platform that supports the
Information Risk Management protects informa-               needs of OCC staff, stakeholders, and customers. The
tion resources against loss, misuse, or unauthorized        unit operates and maintains the OCC’s Data Center as
access. The unit develops standards for the cost-effec-     well as a distributed technical infrastructure that pro-
tive implementation of information security controls,       cesses, shares, and secures the large volume of highly
delivering high-quality information security services       sensitive data used by the OCC workforce.




  Douglas W. Roeder
  Senior Deputy Comptroller
  Large Bank Supervision


Douglas W. Roeder was appointed         a member of the OCC’s Executive
Senior Deputy Comptroller for           Committee and the OCC’s
Large Bank Supervision and              Committee on Bank Supervision.
officially assumed that position in
October 2001.                           Previously, he served four years
                                        as Deputy Comptroller for Large
Mr. Roeder is responsible for           Bank Supervision. Before that,
examinations and supervision            he was the OCC’s Examiner-in-
activities in the largest national      Charge at Fleet Financial Group
banks and federal branches and          Inc., Boston, Massachusetts, and
agencies. In addition, he oversees      the former Shawmut National             and held both regional bank and
operations of the International         Corp. in Hartford, Connecticut.         problem-bank analyst positions in
Banking Supervision group and the       He also served as Field Manager         the Chicago District Office.
OCC’s London office. He serves as       of the OCC’s Boston Field Office




                                                                              Section Three: Executive Leadership	   33
      Large Bank Supervision

The Large Bank Supervision Department supervises                        Bank Supervision also oversees operations in the OCC’s
the 15 largest and most complex national banking                        London office and the Shared National Credit program.
companies, as well as foreign-owned U.S. branches                       Large banks are centrally supervised through the OCC
and agencies. Because of the vast—and, in some cases,                   headquarters office in Washington, D.C., by Deputy
global—operating scope of large banks, the OCC                          Comptrollers under the direction of the Senior Deputy
assigns examiners to work full-time on the premises                     Comptroller for Large Bank Supervision. The OCC’s
of the largest institutions. Working on-site enables the                Large Bank Supervision program is designed to
OCC to maintain an ongoing program of risk assess-
ment, monitoring, and communications with bank                          •	 Determine the condition of the bank and the risks
management and directors. Large Bank Supervision’s                         associated with current and planned activities, includ-
philosophy is one of continuous supervision to assess                      ing relevant risks originating in subsidiaries and
the condition and risk profile of the bank and to take                     affiliates.
appropriate supervisory and regulatory action when                      •	 Evaluate the overall integrity and effectiveness of
necessary.                                                                 risk management systems, using periodic validation
                                                                           through transaction testing.
Supervisory work in many of the large banks has an                      •	 Determine compliance with laws and regulations.
expanding international emphasis, requiring increas-                    •	 Communicate findings, recommendations, and
ing interaction with foreign supervisors. International                    requirements to bank management and directors in a
Banking Supervision, a group within Large Bank                             clear and timely manner and obtain informal or for-
Supervision, serves as the primary point of contact for                    mal commitments to correct significant deficiencies.
international banking supervisors and as a clearing-                    •	 Verify the effectiveness of corrective actions, or, if
house for various requests the agency receives, such                       actions have not been undertaken or accomplished,
as for supervisory information, bilateral meetings, and                    pursue timely resolution through more aggressive
participation in international working groups. Large                       supervision or enforcement actions.




      John G. Walsh
      Chief of Staff and Public Affairs


John G. Walsh became Chief of                   Mr. Walsh joined the OCC from
Staff and Public Affairs in October             the Group of 30, a consultative
2005.                                           group that focuses on international
                                                economic and monetary affairs.
In this role, Mr. Walsh serves as               He joined the Group in 1992 and
the Comptroller of the Currency’s               became Executive Director in
senior advisor on all matters,                  1995. Mr. Walsh served on the
represents the Comptroller in                   Senate Banking Committee staff
internal and external meetings                  from 1986 to 1992 and as an
and events, provides expert policy              International Economist for the
advice, and oversees the agency’s               U.S. Department of the Treasury             Program Analyst with the Mutual
Public Affairs, Congressional                   from 1984 to 1986. He also served           Broadcasting System and in the
Liaison, Ombudsman, and Banking                 with the Office of Management               U.S. Peace Corps in Ghana.
Relations functions.                            and Budget as an International

34	       Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
  Office of the Chief of Staff and Public Affairs

The Chief of Staff directs, coordinates, and manages        Banking Relations builds and maintains relationships
the day-to-day activities of the Comptroller’s Office,      with financial services industry stakeholders, primarily
oversees projects of special interest to the Comptroller,   commercial banks and their representatives.
and serves as liaison with OCC staff and the staffs of
other regulatory agencies.                                  Communications provides information and publi-
                                                            cations for the public and for internal use and per-
The OCC’s Ombudsman reports through the Chief of            forms editorial and design services for a variety of
Staff to the Comptroller for all matters except national    publications.
bank appeals. The Ombudsman is responsible for
the national bank appeals process and the Customer          Congressional Liaison is responsible for the OCC’s
Assistance Group. The Ombudsman also supervises             relations with Members of Congress, congressional
the OCC’s Enterprise Governance unit, which                 committees, and congressional staff and for provid-
serves as the agency liaison with three entities having     ing analysis and advice to the Comptroller and senior
oversight authority: the Department of the Treasury’s       policymakers on congressional activities.
Office of Inspector General, the U.S. Government
Accountability Office, and the Office of Management         External Outreach and Minority Affairs aims to
and Budget.                                                 broaden awareness within the OCC and the banking
                                                            industry about current minority banking issues, as well
Public Affairs supports the agency’s efforts and activ-     as to promote understanding in minority communities
ities with such parties as the banking industry, news       of the OCC’s mission.
media, Congress, other government agencies, and the
public. Public Affairs oversees outreach efforts to fos-    Press Relations works with the media to ensure fair,
ter and develop relationships with the constituencies       accurate, and informed coverage of the OCC and
involved in banking; manages news media relations;          issues involving the national banking system.
tracks legislative developments and responds to con-
gressional inquiries and requests for support; directs      Public Affairs Operations provides agency support
the preparation and dissemination of information to         through internal communications, Web and electronic
help bankers, examiners, community organizations,           publishing, communications planning and analysis,
and the general public understand the national banking      and national media outreach and advertising.
system, the OCC’s supervisory activities, and related
issues; ensures fair and easy access to the agency’s
public information; and coordinates internal communi-
cations. Public Affairs consists of six units:




                                                                             Section Three: Executive Leadership	   35
      Julie L. Williams
      First Senior Deputy Comptroller and Chief Counsel


Julie L. Williams was named First               Community Affairs Department.
Senior Deputy Comptroller and                   As the Comptroller’s top legal
Chief Counsel in September 1999.                advisor, she is a member of the
                                                Executive Committee, provid-
Ms. Williams was initially                      ing advice and guidance on major
appointed Chief Counsel of the                  issues and actions. She joined the
OCC in June 1994, with responsi-                OCC in May 1993 as Deputy Chief
bility for all of the agency’s legal            Counsel with responsibility for
activities, including legal advisory            special legislative and regulatory
services to banks and examiners,                projects.
enforcement and compliance activ-
ities, litigation, legislative initia-          Since September 2001, Ms.
tives, and regulation of securities             Williams has served as the OCC’s       served as Deputy Chief Counsel
and corporate practices of national             representative on the board of         for Securities and Corporate
banks. She was designated as the                directors of NeighborWorks             Analysis. She joined the Federal
agency’s statutory “First Deputy”               America, a nonprofit organization      Home Loan Bank Board in 1983,
by the Secretary of the Treasury                created by Congress to support         after working as an attorney with
in 1997 and two years later                     community-based revitalization         the law firm of Fried, Frank,
was named First Senior Deputy                   efforts. She was designated Vice       Harris, Shriver & Kampelman in
Comptroller by Comptroller John                 Chairman of the board in 2007.         Washington, D.C., from 1975 to
D. Hawke Jr.                                                                           1983.
                                                Before joining the OCC, Ms.
From April 1998 until December                  Williams served in a variety of        Ms. Williams is the author of
1998, and again from October                    positions at the Office of Thrift      “National Banks and the Dual
2004 until August 2005, Ms.                     Supervision and its predecessor        Banking System (OCC, 2003),”
Williams served as the Acting                   agency, the Federal Home Loan          “Savings Institutions: Mergers,
Comptroller of the Currency.                    Bank Board. From 1991 to 1993,         Acquisitions and Conversions”
                                                she was Senior Deputy Chief            (Law Journal Seminars-Press,
In addition to overseeing the Office            Counsel, responsible for regula-       1988), and numerous articles on
of the Chief Counsel, Ms. Williams              tions and legislation, corporate       the regulation of depository institu-
supervises the Law Department,                  and securities law, and general        tions, financial services, securities,
the Licensing Department, and the               legal issues. She previously           and corporate law matters.




36	       Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
  Office of the Chief Counsel

The Office of the Chief Counsel supervises the OCC’s      and policy issues in applications receive prompt and
Law, Licensing, and Community Affairs departments.        thorough review. Recent enhancements to the bank
                                                          chartering process include elimination of bank licens-
Law Department enforces compliance with banking           ing fees, assistance in the form of draft application and
requirements by national banks through administrative     business plan review, and expedited review of offering
actions, provides for protection and fair treatment of    materials.
bank customers through application of consumer laws
and regulations, and investigates federal securities      Community Affairs Department supports national
law violations and enforces applicable securities laws.   banks in the provision of community development
The department develops opinions on national bank         financing and retail services to underserved communi-
powers and activities, issues regulations, and provides   ties and consumers. The department provides training
technical assistance in the development of legislation    and technical assistance and administers the national
to modernize banking law. OCC attorneys also negoti-      bank community development investment author-
ate international banking agreements and represent        ity under 12 CFR 24. Many part 24 investments are
the Comptroller in litigation involving the OCC’s         eligible for positive consideration under Community
operations.                                               Reinvestment Act requirements. Department staff
                                                          members provide technical assistance for the OCC’s
Licensing Department charters national banks and          Community Reinvestment Act examinations and
approves activities and structure changes that support    conduct individual consultations with national banks.
a safe and sound national banking system. Corporate       The department sponsors meetings for the exchange of
applications and other activities of national banks       ideas among lenders, community groups, and govern-
primarily are governed by 12 CFR 5. The department        ment officials and issues publications and Web-based
establishes policies and procedures for applications,     resources. Recently, the department has been active
analyzes and processes applications according to          in the areas of mortgage foreclosure mitigation and
published standards, and ensures that significant legal   financial literacy.




                                                                            Section Three: Executive Leadership	   37
“and
 The national [banking] system will create a reliable
     permanent influence in support of the                     “
  national credit and … a great benefit to the people.


  —Abraham Lincoln, State of the Union address, December 6, 1864
Section Four: OCC Snapshots

Office of the Chief Counsel:                     changes requiring OCC approval                   The department works closely with
Licensing and Enforcement                        include new bank charters, con-                  bank supervision and other OCC
Activities                                       versions to the national charter,                units on the viability and legality of
                                                 national bank merger (or business                proposals for dealing with problem
The Licensing Department estab-                  combinations), corporate reorgani-               banks. Proposed restructuring
lishes policies and procedures for               zations, changes in control, operat-             arrangements that may avoid bank
the OCC’s processing of corporate                ing subsidiaries, branches, reloca-              failures and their associated costs
applications involving national                  tions, capital and subordinate debt              can include mergers and purchases
banks and foreign banking orga-                  issuances, and applications from                 and assumptions. To address
nizations. Corporate structure                   foreign branches and agencies.                   potential safety and soundness

Figure 5: Corporate Application Activity, Fiscal Years 2008 and 2009

                                        Fiscal Year      Fiscal Year
                                                                                           Fiscal Year 2009 Decisions
                                           2008             2009

                                                                                            Conditionally
                                         Applications Received             Approved                               Denied           Total 5
                                                                                             Approved 4
    Branches                                   1,251             906                911                  4                 1            916
    Capital / Sub Debt                           170             303                111                  5                 0            116
    Change in Bank Control                          5             15                   2                 1                 0                 5
    Charters                                       33             21                   4                12                 1             17
    Conversions ¹                                   7             13                   0                 5                 0                 5
    Federal Branches                                3               1                  0                 2                 0                 2
    Fiduciary Powers                               11             16                   3                 0                 0                 4
    Mergers ²                                      46             57                 45                  1                 0             46
    Relocations                                  291             230                235                  0                 0            235
    Reorganizations                              111              81                 58                 11                 0             69
    Stock Appraisals                                1               1                  0                 0                 0                 0
    Subsidiaries ³                                 23             57                 49                  3                 0             54
    12 CFR 5.53 Change in Assets                    5               6                  0                 2                 0                 2
    Limited National Bank Upgrade                   0               3                  0                 0                 0                 0
    Total                                      1,957           1,710              1,418                 46                 2         1,471
Source: OCC data for fiscal years 2008 and 2009.
1
  Conversions to national bank charters.
2
  Mergers include failure transactions when the national bank is the resulting institution.
3
  This count does not include 84 After-the-Fact notices received in fiscal year 2008 and 70 After-the-Fact notices received in fiscal year 2009.
4
  On April 14, 2000, the Licensing Department issued guidance imposing a special condition for approvals of bank charters that
requires prior OCC no-objection to significant deviations or change in the operating plan during the first three years of operation.
5
  Total includes alternative decisions or no-objections.
Figure 6: Licensing Actions and Timeliness, Fiscal Years 2008 and 2009

                                                                       Fiscal Year 2008                           Fiscal Year 2009

                                                                                 Within Target                           Within Target

                                               Target
                                                           Number                                       Number
                                                Time
             Application Type                                of            Number         Percent         of          Number         Percent
                                               Frames
                                                          Decisions                                    Decisions
                                              in Days 1
 Branches                                     45 / 60          1,259         1,222               98        916            888             97
 Capital / Sub Debt                           30 / 45            76                70            92        116            112             97
 Change in Bank Control                       NA / 60             4                 3            75           5             4             80
 Charters ²                                                      28                17             61         17            10             59
 Conversions                                  30 / 90             8                 6             75          5             1             20
 Federal Branches                             NA / 120            3                 2             67          2             0              0
 Fiduciary Powers                             30 / 45             3                 3            100          4             4            100
 Mergers                                      45 / 60            46                44             96         46            43             93
 Relocations                                  45 / 60           283              274              97       235            230             98
 Reorganizations                              45 / 60           111                98             88         69            58             84
 Stock Appraisals                             NA / 90             0                 0              0          0             0              0
 Subsidiaries                                   NA               18                15             83         54            50             93
 12 CFR 5.53 Change in Assets                 NA / 60             4                 4            100          2             2            100
 Limited National Bank Upgrade        2
                                                                  0                 0             0           0             0              0
 Total                                                         1,843         1,758               95       1,471         1,402             95

Source: OCC data for fiscal years 2008 and 2009.
Note: Most decisions (98 percent in 2008 and 97 percent 2009) were decided in the district offices and Large Bank Licensing under delegated
authority. Decisions include approvals, conditional approvals, and denials. NA means “not applicable.”
1 Those filings that qualified for the “expedited review” process are subject to the shorter of the time frames listed. The longer time frame is

the standard benchmark for more complex applications. New time frames commenced in 1997 with the adoption of the revised part 5. The
target time frame may be extended if the OCC needs additional information to reach a decision, permits additional time for public comment, or
processes a group of related filings as one transaction.
2 For independent charter applications, the target time frame is 120 days. For holding-company-sponsored applications, the target time frame

is 45 days for applications eligible for expedited review and 90 days for all others.




Figure 7: Change in Bank Control Act, Fiscal Years 2005–2009
(Notices Processed With Disposition)
                                                   Not
      Year      Received      Acted On                          Disapproved         Withdrawn
                                               Disapproved
      2009             10                 7               7                  0              3
      2008               5                4               4                  0              0
      2007               6                6               0                  0              0
      2006               9                8               4                  0              4
      2005             17             17                  17                 0              0

Source: OCC data for fiscal years 2005 through 2009.



40	          Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
problems, the OCC may impose                Figure 8: List of Applications Presenting Community Reinvestment Act
conditions upon bank transaction            Issues Decided, Fiscal Year 2009

approvals covering capital and                                                   Interpretations and
liquidity arrangements and devia-                  Bank, City, State                                        Document Number
                                                                                       Actions
tions from business plans. Figure 6
reflects licensing activity in fiscal        Peoples Bank, National
                                             Association, Marietta, Ohio       October 2008                CRA Decision No. 144
years 2008 and 2009. The OCC
                                             (Branch)
may take formal enforcement
actions to ensure compliance with            Whitney National Bank, New
                                                                               November 2008               CRA Decision No. 145
federal banking law by national              Orleans, Louisiana (merger)
banks and officials. These actions
                                            Source: OCC data for fiscal years 2009.
include formal written agreements,
cease-and-desist orders, civil              ating banks funds, or other                    whose actions in a professional
money penalties, and prohibition            improper practices in loan adminis-            capacity in relation to the bank meet
orders. Officials of national banks         tration, use of bank premises, bank            certain standards of misconduct or
may be the subject of these actions         expenses, and exercise of fiduciary            are otherwise illegal. Figure 9
for misrepresentation in regulatory         duty. The OCC also takes action                summarizes enforcement actions
filings, self-dealing, or misappropri-      against institution-affiliated parties         taken in fiscal year 2009.
Figure 9: OCC Enforcement Actions, Fiscal Year 2009

                                                                                                   Against Institution-Affiliated
                 Type of Enforcement Action                              Against Banks
                                                                                                             Parties

 Cease-and-Desist Orders                                                                     40                               13
 Temporary Cease-and-Desist Orders                                                            0                                0
 12 USC 1818 Civil Money Penalties                                                            4                               17
 12 USC 1818 Civil Money Penalties Amount Assessed                  $                  5,388,835       $                236,000
 Flood Insurance Civil Money Penalties                                                        7                                0
 Flood Insurance Civil Money Penalties Amount Assessed              $                   258,535        $                       0
 Restitution Orders                                                                           1                                2
 Amount of Restitution Ordered                                      $                 25,000,000       $              4,008,000
 Formal Agreements                                                                           89                                0
 Capital Directives                                                                           2                              N/A
 Prompt Corrective Action Directives                                                          5                              N/A
 Individual Minimum Capital Ratio Letters                                                   132                              N/A
 Safety and Soundness Plan                                                                    1                              N/A
 Memorandums of Understanding                                                                53                                0
 Commitment Letters                                                                          12                              N/A
 Suspension Orders                                                                          N/A                                1
 12 USC 1818 Removal/Prohibition Orders                                                     N/A                               26
 12 USC 1829 Prohibitions                                                                   N/A                              254
 Letters of Reprimand                                                                       N/A                               20
 Total Enforcement Actions                                                                  346                              333

Source: OCC data for fiscal year 2009.
Note: N/A means “not applicable.”



                                                                                              Section Four: OCC Snapshots	     41
                                               key areas: hiring entry-level            also looks at such factors as the
The OCC Anticipates                            examiners, as well as supervisory        flexibility to travel and relocate,
                                               personnel with financial industry        both of which have been found to
and Plans for Future                           experience; maximizing employee          be indicators of job satisfaction.
Staffing Needs                                 retention; and developing requisite
                                               examiner skills.                         The agency recognizes that meet-
Maintaining continuity of mission                                                       ing future staffing needs requires
at a time of demographic transi-               Since 2005, the OCC has hired            concerted measures for employee
tion is a challenge that many gov-             more than 800 new examiners,             retention. Failure to retain valu-
ernment agencies face. The OCC                 including 158 in fiscal year 2009.       able human resources deprives the
is no exception. Over the next five            The agency’s nationwide hiring           agency of expertise and represents
years, almost a third of the OCC’s             program combines on-campus               a substantial loss of investment
examining force will be eligible to            recruiting and open solicitation         in recruitment, training, and
retire. With the impending loss of             of applications through the Office       development.
experienced bank examiners, the                of Personnel Management’s
agency must ensure that sufficient             USAJobs.gov. This two-pronged            To promote higher retention rates
numbers of people with the neces-              approach gives the OCC access            among all employees, the OCC
sary skills are available to oversee           to high-caliber and diverse candi-       offers competitive compensation,
the national banking system.                   dates. In considering applicants for     benefits, and work-life balance
The OCC focuses on three                       bank examiner positions, the OCC         programs. Additionally, the OCC
                                                                                        devotes significant resources to
                                                                                        mentoring and supporting newly
                                                                                        hired examiners to ensure that they
                                                                                        gain the skills and experiences
                                                                                        necessary to become commissioned
                                                                                        National Bank Examiners. That
                                                                                        process typically takes about five
                                                                                        years and culminates in the suc-
                                                                                        cessful completion of the Uniform
                                                                                        Commission Examination.

                                                                                        The OCC must have the staff-
                                                                                        ing levels and examiner skill sets
                                                                                        needed to carry out the agency’s
                                                                                        supervisory responsibilities. The
                                                                                        OCC continuously assesses the
                                                                                        expertise it needs to effectively
                                                                                        supervise national banks of all sizes
                                                                                        and complexity, including such spe-
                                                                                        cialty areas as asset management,
                                                                                        bank information technology, oper-
                                                                                        ational risk, consumer compliance,
                                                                                        capital markets, mortgage bank-
                                                                                        ing, retail credit, and commercial
                                                                                        credit. Comprehensive training and
                                                                                        development programs are in place
                                                                                        to ensure that examiners develop
The OCC recruits prospective bank examiners at the Haskell Indian Nations University,   the expertise necessary to meet the
Lawrence, Kansas.                                                                       OCC’s needs in all skill areas.

42	      Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
                                                                                      the country consult with national
                                                                                      banks about financial literacy and
                                                                                      education initiatives that banks
                                                                                      might undertake as part of their
                                                                                      Community Reinvestment Act
                                                                                      programs. In connection with
                                                                                      these efforts, the OCC’s
                                                                                      Community Affairs Department
                                                                                      posts on OCC.gov a Financial
                                                                                      Literacy Web Resource Directory
                                                                                      to help banks wishing to make
                                                                                      financial literacy an integral part
                                                                                      of their Community Reinvestment
                                                                                      Act programs.

                                                                                      For consumers, the OCC’s
                                                                                      award-winning Web site,
                                                                                      HelpWithMyBank.gov, is a clear-
                                                                                      inghouse that provides answers
                                                                                      to frequently asked questions on
                                                                                      such topics as credit cards, deposit
                                                                                      accounts, mortgages, consumer
Comptroller Dugan visits with associate National Bank Examiners at the OCC Career
Forum, designed to assist them in preparing for the Uniform Commission Examination.   loans, and insurance. The site
                                                                                      enables consumers to file com-
                                            successful in encouraging better          plaints about national banks and
                                            money management through sav-             provides consumer tips and links
Financial Literacy                                                                    to the OCC’s Customer Assistance
                                            ings, credit, and checking products.
Is Key to Personal                                                                    Group and other regulatory agen-
Financial Success                           “The OCC has done much in recent          cies and resources. In addition, the
                                            years to share financial knowledge        OCC produces consumer adviso-
The costs of financial illiteracy can       and best practices, to leverage           ries on commonly misunderstood
be high. When people sign mort-             resources, and to build financial         financial products. The OCC
gage agreements they don’t under-           literacy partnerships,” said Barry        helps raise awareness about these
stand, move their hard-earned               Wides, the Deputy Comptroller for         issues through radio public service
funds into dubious investment               Community Affairs. “We concen-            announcements and placement of
products, incur avoidable bank              trate our financial literacy activi-      articles in local newspapers.
fees, or spend beyond their means,          ties on encouraging the efforts of
they compromise their futures.              national banks and building public        The OCC also publishes a
Using banks, keeping budgets,               awareness about the numerous              bimonthly Financial Literacy
managing checkbooks, or saving              financial education resources and         Update. This electronic newslet-
for retirement can make enormous            tools that are now available.”            ter promotes financial literacy
positive difference in the quality of                                                 events, new initiatives of the OCC
people’s lives.                             Banks can earn positive consid-           and other government agencies
                                            eration under the Community               and organizations, and related
That’s why the OCC works to                 Reinvestment Act for creating             resources. The OCC e-mails the
promote national banks’ financial           financial literacy initiatives serving    newsletter to thousands of com-
literacy initiatives. The agency high-      low- and moderate-income popula-          munity development and financial
lights initiatives that are particularly    tions. OCC staff members around           literacy contacts.

                                                                                        Section Four: OCC Snapshots	    43
                                                                                           these agreements, the OCC cre-
                                                                                           ated what it calls the Complaint
                                                                                           Referral Express—an electronic
                                                                                           complaint delivery system that
                                                                                           speeds the exchange of misdi-
                                                                                           rected complaints among the
                                                                                           OCC, state banking authorities,
                                                                                           and other federal agencies. The
                                                                                           system protects the privacy of
                                                                                           individuals while ensuring that
                                                                                           complaints reach the right desti-
                                                                                           nation expeditiously. Since mid-
                                                                                           2008, more than 8,000 consumer
                                                                                           complaints, involving 27 state
                                                                                           banking departments and other
                                                                                           federal regulators, have been
                                                                                           redirected using the system.

                                                                                           “Even in a financial crisis,”
                                                                                           said Larry Hattix, the OCC’s
                                                                                           Ombudsman, “our mission
                                                                                           stays the same: we seek to
                                                                                           ensure that national banks and
Financial Literacy Day on Capitol Hill brings together providers of financial education,
including the OCC.                                                                         customers of national banks
                                                                                           receive fair and expeditious
“Financial literacy is the first step          customer inquiries and handled              resolutions of their complaints.”
toward financial success for our               more than 40,000 complaints.
kids and for many older consum-
ers,” said Comptroller Dugan.                  The office boosted its processing
                                               and information-sharing capabili-
                                                                                           Information Technology
“These programs spread the word
that financial knowledge can help              ties to cope with rising demand             Services: ‘Supporting
them protect, manage, and invest               for its services. In February               the OCC’s Highly
their money better.”                           2009, the OCC adopted an online
                                               complaint system that is faster,            Mobile Workforce,
                                               reduces mailing costs, and sharply          Any Time, Anywhere’
                                               reduces data-entry errors.
Ombudsman
                                                                                           A robust information technol-
Addresses Consumer                             Given the number of regulatory              ogy environment is crucial to the
Complaints                                     agencies, some consumers are                OCC’s ability to perform its bank
                                               understandably confused when                supervision and consumer protec-
The Customer Assistance Group                  trying to find the proper agency            tion responsibilities. The challenge
of the OCC’s Office of the                     to handle their complaints. To              grows when examiners are being
Ombudsman is the first point                   speed the handling of complaints            called upon to assist in the super-
of contact for people in need of               mistakenly filed with the OCC,              vision of a growing population of
assistance in dealing with their               the Ombudsman has entered into              problem banks. These responsi-
banks. In the first three quarters             memorandums of understand-                  bilities require examiners to travel
of 2009, the Customer Assistance               ing with 45 states that spell out           frequently and with little notice,
Group answered more than 61,000                coordination protocols. To support          increasing their dependence on

44	      Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
access to the OCC’s mobile elec-      and secure connectivity with          or of a complaint filed with the
tronic communications network         more choices among service            OCC’s Customer Assistance
and supervisory tools.                providers.                            Group. Only 152 of the more than
                                                                            2,700 requests for information
To help the OCC meet the              Advanced information systems          under the Freedom of Information
demand for information technol-       supported OCC supervision at          Act received in fiscal 2009 were
ogy, Information Technology           a critical time for the national      rejected. By law, government
Services introduced new tools         banking system and the economy,       information that relates to threats
so agency employees anywhere          performing the mission defined        to national security, trade secrets,
in the world may search OCC           by Chief Information Officer          ongoing criminal investigations,
databases and analyze bank            Bajinder Paul: “To support our        and bank examinations may not
records more readily and securely.    highly mobile work force any          be made public.
Providing examiners with better       time, anywhere, using any com-
technology enables them to make       puter securely and efficiently.”
their on-site time more focused
and productive. Information
technology tools are especially
important to examiners looking
                                      Improving
into critical and complex credit      Transparency and
and capital market problems.
                                      Access to Public
Progress in the information tech-     Information
nology realm relies on feedback
from field examiners and other        In a major step toward greater
OCC employees. To gain a better       openness and access, the OCC
picture of technological needs,       completed a project to automate
Information Technology Services       the way it receives, tracks, pro-
commissioned an independent           cesses, and releases information
survey to measure employees’          under the Freedom of Information
satisfaction with its services.       and Privacy acts. In the interests
Although Information Technology       of greater transparency, the OCC
Services generally got high marks     began making an increasing num-
from users in such areas as techni-   ber of documents available online.
cal knowledge, timeliness, and        These include document collec-
reliability, the survey identified    tions that were formerly avail-
several areas in need of improve-     able only in hard copy and only
ment, particularly in hardware        on-site at the OCC’s Washington
performance.                          headquarters.

With this feedback, Information       Expanded access to OCC informa-
Technology Services adopted           tion comes at a time when demand
the Integrated Mobile Employee        for that information, from the
Technology Refresh and                general public, the legal and busi-
Optimization program to provide       ness communities, and the news
newer, faster, and more capable       media, is on the rise. Through
equipment across the OCC. The         the Freedom of Information Act
program includes hardware to          process, bank customers, for
improve broadband access for          example, may learn more about
examiners by ensuring reliable        the status of a particular bank

                                                                              Section Four: OCC Snapshots	    45
“ The  expenses necessarily incurred in executing the provisions
  of this act respecting all expenses of the bureau … shall be              “
   collected from associations organized under this act.


   —National Bank Act, June 3, 1864, Section 41


   46	    Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
Section Five: Financial Management
Discussion and Analysis
Letter from the Chief                   was operating effectively and no
Financial Officer                       material weaknesses were found in
I am pleased to present the OCC’s       the design or operation of the inter-
financial statements as an integral     nal control over financial reporting.
part of the fiscal year (FY) 2009
Annual Report. I am also pleased        A strong internal control environ-
to report that for FY 2009 our          ment is complemented when a
independent auditors rendered an        strong process improvement pro-
unqualified opinion with no mate-       gram exists. In FY 2005, the Office
rial internal control weaknesses.       of Management adopted the Lean
The OCC’s commitment to effec-          Six Sigma program to improve the
tive financial management and a         effectiveness and efficiency of the
strong internal control environment     OCC’s administrative processes.
continues to be my highest priority.    The program has continued to                program’s inception, OCC has
                                        evolve and influence the culture of         trained 69 individuals, of which 30
The OCC’s financial internal con-       the agency. It is now the accepted          have been certified as either black
trols program is designed to meet       practice in addressing process              or green belts in Lean Six Sigma.
the rigorous requirements man-          issues at the OCC. This past year,          We also have two certified master
dated by the Office of Management       Lean Six Sigma process reengi-              black belts, the highest certifica-
and Budget’s Circular A-123—            neering projects were completed             tion, on our staff. In FY 2009,
Management’s Responsibility for         in the Office of the Ombudsman,             the Office of Management began
Internal Controls (A-123). First        Information Technology Services,            offering Lean Six Sigma training
implemented in FY 2006, our             Office of Public Affairs, and the           programs in-house and completed
A-123 program continues to evolve       Office of Management.                       efforts to enable it to certify staff
and provide us with meaningful                                                      as meeting criteria as Lean Six
input on how we can continue to         In the past five years, 95 projects         Sigma “belts.”
strengthen our controls. This past      have been completed with annual
year saw the implementation of          cost or productivity savings in             In conjunction with our Lean
continuous internal control test-       excess of $9 million. Since the             Six Sigma program, we adopted
ing in our Financial Management
Division. In addition, the agency’s
purchase card program, contract
                                           The OCC was once again able to provide
administration program, and travel         unqualified assurance that its internal control
operations program were strength-          over financial reporting was operating effectively
ened as a result of the financial
                                           and no material weaknesses were found in the
internal controls program. The OCC
was once again able to provide             design or operation of the internal control over
unqualified assurance that its inter-      financial reporting.
nal control over financial reporting


                                                          Section Five: Financial Management Discussion and Analysis	   47
a process maturity model to                   budget, and we anticipate the same        to the bank assessment rate struc-
document all of the Office of                 for FY 2010. At the end of each           ture. In FY 2009, the subcommittee
Management’s core administrative              year, excess funds are allocated to       approved the increased contribution
processes, identify key process               agency financial reserves.                of funds to our asset replacement
owners, and move to a cross-func-                                                       reserve to ensure a smooth transi-
tional view of our processes. With            The Budget and Finance                    tion for financial needs, which will
the new Administration’s focus on             Subcommittee, which I chair,              arise because of expiring office
process efficiency, we believe that           closely monitors the overall finan-       space leases and the replacement
we are well positioned to meet the            cial condition of the OCC. During         of fully depreciated and amortized
challenges of improving the qual-             our monthly meetings, the subcom-         assets. In addition, in the current
ity of our administrative processes           mittee focuses on agency invest-          uncertain environment, the reserves
while optimizing the costs of pro-            ment activities, office space needs,      are available to address special
viding these services to the agency.          and financial reserves. The OCC           one-time needs that may result from
                                              invests its financial reserves in U.S.    regulatory restructuring.
As a nonappropriated federal                  Treasury securities. Because interest
agency, the OCC receives its                  rates are currently at historical lows,   Because my highest priority is effec-
revenue through assessments on                year-over-year decreases in interest      tive financial management and a
national banks and interest income            income have resulted. Nevertheless,       strong internal control environment,
received on investments. The                  using a conservative laddering strat-     we will continue to be vigilant in
OCC’s balance sheet and annual                egy, the portfolio continues to per-      safeguarding the assets of the OCC.
operating budget is greatly influ-            form favorably against peer bench-        And, in conclusion, my approach to
enced by the influx of assets into            marks. The subcommittee has also          achieve this goal is to ensure that we
the national banking system over              provided oversight to the increase        have the finest people and resources
the past six years. While we antic-           in office space, which is directly        dedicated to managing and monitor-
ipate the need to increase our bank           correlated to the increases in staff.     ing the effective and efficient use of
supervision staff in FY 2010, the             The subcommittee reviewed and             agency funds.
overall growth in the OCC bud-                approved several major office space
get will be moderate because of               projects during the past year and
programs implemented in FY 2009               continued its focus on the expir-
to contain the growth in informa-             ing headquarters lease. Finally, the
tion technology expenditures. The             subcommittee closely monitors the
primary use of the agency’s funds             OCC’s financial reserves. These
is for personnel costs, travel, and           reserves play an integral role in the
training. These three expense items           financial health of the agency and
accounted for almost 73 percent               allow the OCC to plan for future          Thomas R. Bloom
of the total FY 2009 operating                needs without continuous changes          Chief Financial Officer




48	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
Financial Highlights                           The OCC uses entity assets, which           net revenues, which resulted from
                                               belong to the agency, to fund               national bank asset growth dur-
Overview                                       operations. The OCC acquires                ing FY 2009. Figure 10 shows the
The OCC received an unquali-                   revenue through the collection of           OCC’s composition of assets for
fied opinion on its FYs 2009 and               assessments from national banks             FYs 2009 and 2008.
2008 financial statements. The                 and from other income, including
financial statements consist of                interest on investments in U.S.             Liabilities
Balance Sheets, Statements of Net              Treasury securities. Non-entity             The OCC’s liabilities represent the
Cost, Statements of Changes in                 assets are assets that the OCC              resources due to others or held for
Net Position, and Statements of                holds on behalf of another fed-             future recognition and largely com-
Budgetary Resources. The OCC                   eral agency or other third party.           prise deferred revenue, accrued
presents the financial statements              The OCC’s non-entity assets                 liabilities, and accounts payable.
and notes on a comparative basis,              are civil money penalties due               Deferred revenue represents the
providing financial information for            the federal government through              unearned portion of semiannual
FYs 2009 and 2008. The financial               court-enforced legal actions. Upon          assessments that have been col-
statements were prepared from                  collection, the OCC transfers these         lected but not earned. The OCC
the OCC’s accounting records in                amounts to the General Fund of              records a custodial liability for the
conformity with generally accepted             the U.S. Treasury.                          net amount of enforcement-related
accounting principles for U.S.                                                             receivables. Upon collection, the
federal agencies (federal GAAP).               As of September 30, 2009, total             OCC transfers these amounts to the
The financial statements, notes,               assets were $1,069.0 million,               General Fund of the U.S. Treasury.
and auditor’s opinion begin on                 an increase of $85.8 million or
page 54. A summary of the OCC’s                8.7 percent from the level at               As of September 30, 2009, total
financial activities in FYs 2009               September 30, 2008. This increase           liabilities were $314.7 million,
and 2008 follows.                              is primarily attributable to the            a net increase of $17.5 million,
                                               growth in the OCC’s investment              or 5.9 percent, over the level on
Assets                                         portfolio. Investments and accrued          September 30, 2008. The increase
The OCC’s assets include both                  interest increased by $76.7 million,        of $8.8 million, or 4.9 percent, in
“entity” and “non-entity” assets.              or 8.4 percent, due to an increase in       deferred revenue was a result of

Figure 10: Composition of Assets (in Millions)




Source: OCC data for fiscal years 2009 and 2008.



                                                                 Section Five: Financial Management Discussion and Analysis	   49
an increase in assessment collec-              Net Position                           directly relates to greater-than-
tions during FY 2009. The increase             The OCC’s net position of              expected net revenue over FY
of $4.9 million, or 5.1 percent,               $754.3 million as of September         2008. The net position is presented
in accounts payable and accrued                30, 2009, and $686.1 million as        on both the Balance Sheets and
liabilities was primarily caused               of September 30, 2008, represent       the Statements of Changes in Net
by an increase in payroll and                  the cumulative net excess of the       Position.
employee benefits over last year.              OCC’s revenues over the cost of
Figure 11 illustrates the OCC’s                operations since inception. The        As discussed in the next section, the
composition of liabilities for FYs             majority of this increase of           OCC reserves a significant portion
2009 and 2008.                                 $68.2 million, or 9.9 percent,         of the net position to supplement


Figure 11: Composition of Liabilities (in Millions)




Source: OCC data for fiscal years 2009 and 2008.


Figure 12: Composition of Net Position (in Millions)




Source: OCC data for fiscal years 2009 and 2008.



50	      Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
resources made available to fund                of existing fixed asset accounts, a              FY 2009, 87.1 percent, or
the OCC’s annual budget and to                  growth rate factor, and other mar-               $7.2 trillion, is attributable to large
cover foreseeable but rare events.              ket cost adjustments.                            national banks. Large banks’ share
The OCC also earmarks funds for                                                                  of total OCC assessment revenue
ongoing operations to cover unde-               Revenues and Costs                               decreased from 70.1 percent to
livered orders, the consumption                 The OCC does not receive appro-                  69.0 percent, followed by midsize
of assets, and capital investments.             priations. The OCC’s operations                  and community banks increas-
Figure 12 shows the OCC’s compo-                are funded primarily by assess-                  ing to 27.6 percent, and federal
sition of net position for FYs 2009             ments collected from national                    branches up slightly to 3.4 percent.
and 2008.                                       banks and interest on investments                National bank asset growth com-
                                                in U.S. Treasury securities. The                 bined with the movement of assets
Reserves                                        Comptroller, in accordance with                  into the national banking system
The establishment of financial                  12 USC 482, establishes budget                   resulted in the higher total assets
reserves is integral to the effec-              authority for a given fiscal year.               of national banks in FY 2009.
tive stewardship of the OCC’s                   The total budget authority available             Figure 14 shows the composition
resources, particularly because the             for use by the OCC in FY 2009 was                of national bank assets by large
agency does not receive congres-                $775.3 million, which represents                 banks, midsize banks, community
sional appropriations. The contin-              an increase of $26.2 million, or                 banks, and federal branches for
gency reserve serves to reduce the              3.5 percent, over the $749.1 million             FY 2009 and 2008.
impact on the OCC’s operations of               budget in FY 2008.
revenue shortfalls resulting from                                                                Investments
foreseeable but rare events that                Total FY 2009 revenue of                         The book value of the OCC’s
are beyond the OCC’s control, or                $774.7 million reflects a                        portfolio on September 30, 2009,
new requirements and opportu-                   $38.6 million, or 5.2 percent,                   was $981.8 million, compared with
nities. Examples of such events                 increase over FY 2008 revenues                   $904.7 million a year earlier. The
might include a major change in                 of $736.1 million. The increase is               market value of the OCC’s portfo-
the national banking system, a fire             primarily attributable to a rise in              lio in excess of book value rose to
or flood, or significant impairment             bank assessment revenue stem-                    $24.1 million from $17.5 million
to the OCC’s information technol-               ming from bank asset growth in the               on September 30, 2008. The OCC
ogy network that interferes with                national banking system. Figure                  invests available funds in non-
the OCC’s ability to accomplish                 13 depicts the components of total               marketable U.S. Treasury securi-
its mission. The asset replacement              revenue for FYs 2009 and 2008.                   ties issued through the Department
reserve is for the replacement of                                                                of the Treasury’s Bureau of
information technology equipment,               Bank Assets and                                  Public Debt in accordance with
leasehold improvements, and fur-                Assessment Revenue                               the provisions of 12 USC 481
niture replacement for future years.            Total assets under OCC supervi-                  and 12 USC 192. The increase
The OCC establishes the target                  sion increased during FY 2009 to                 in investments of $77.1 million,
level in the replacement reserve                $8.3 trillion, or 2.5 percent, from              or 8.5 percent, during the fiscal
annually, based on the gross value              $8.1 trillion a year earlier. For                year reflects the investment of

Figure 13: Components of Total Revenue (in Millions)
                                    Fiscal Year 2009            Fiscal Year 2008               Change                      Percent
 Assessments                    $                  751.2    $                707.5     $                   43.7                     6.2%
 Investment Income                                  21.5                      26.1                         (4.6)                    (17.5)
 Other¹                                              2.0                        2.5                        (0.5)                    (20.2)
 Total Revenue                  $                  774.7    $                736.1         $               38.6                     5.2%
Source: OCC data for fiscal years 2009 and 2008.
¹ Other sources of revenue include bank licensing fees, revenue received from the sale of publications, and other miscellaneous sources.



                                                                      Section Five: Financial Management Discussion and Analysis	            51
Figure 14: Composition of National Bank Assets (in Billions)




Source: OCC data as of June 30 for fiscal years 2009 and 2008.




greater-than-expected net revenue.             Cost of Operations                     further divided into those resulting
The portfolio earned an annual                 The OCC’s net cost of operations       from transactions between the OCC
yield for FY 2009 of 2.9 percent.              is reported on the Statements of       and other federal entities (intra-
The OCC calculates annual port-                Net Cost and the Statements of         governmental) and those between
folio yield by dividing the total              Changes in Net Position. The OCC       the OCC and nonfederal entities
interest earned during the year by             uses an activity-based time report-    (with the public). The Statements
the average ending monthly book                ing system to allocate costs among     of Net Cost present the full cost of
value of investments.                          the agency’s programs. Costs are       operating the OCC’s three major


Figure 15: Costs of Operations by Major Program (in Millions)




Source: OCC data for fiscal years 2009 and 2008.



52	      Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
programs—supervise, regulate,         7.8 percent, from $679.5 million            revenues. The increases in assess-
and charter national banks—for the    in FY 2008. The increase was pri-           ments are a direct result of bank
years ended September 30, 2009,       marily due to an increase in staff-         asset growth in the national bank-
and September 30, 2008. Figure 15     ing levels and the cost of pay and          ing system, particularly the largest
illustrates the breakdown of costs    benefits. The OCC experienced an            banks. Correspondingly, the costs
of operations for FYs 2009 and        increase in full-time equivalents of        of supervising the national banks
2008.                                 73.3, or 2.4 percent, to 3,104.1 in         have risen because of the increas-
                                      FY 2009 from 3,030.8 in FY 2008,            ing size and complexity of national
The full cost presented in the        and additions to employee benefit           bank assets.
Statements of Net Cost includes       programs caused costs to increase
costs contributed by the Office       as well. Additional contributing            Budgetary Resources
of Personnel Management on            factors include increases to con-           The Statements of Budgetary
behalf of the OCC to cover the        tractual services supporting main-          Resources, designed primarily
cost of the Federal Employees         tenance, noncapitalized informa-            for appropriated fund activities,
Retirement System and Civil           tion technology investments, rent,          presents the budgetary resources
Service Retirement System             and travel costs.                           available to the OCC for the year,
retirement plans and the Federal                                                  the status of these resources at the
Employees Health Benefits and         The full cost is reduced by earned          end of the year, and the net outlay
Federal Employees Group Life          revenues to arrive at net cost.             of budgetary resources at the end
Insurance plans totaling $26.2 mil-   Earned revenues increased by                of the year. The OCC, which is a
lion in FY 2009 and $25.8 million     $38.6 million, or 5.2 percent, due          nonappropriated agency, executed
in FY 2008. FY 2009 total program     to an increase in FY 2009 bank              $722.7 million, or 93.2 percent,
costs of $732.6 million reflect an    assessments that was slightly               of the FY 2009 budget of
increase of $53.1 million, or         offset by minor decreases in other          $775.3 million.




                                                        Section Five: Financial Management Discussion and Analysis	   53
Financial Statements


                                Office of the Comptroller of the Currency
                                              Balance Sheets
                                            As of September 30, 2009 and 2008
                                                            (in Thousands)

                                                                                  Fiscal Year 2009           Fiscal Year 2008
Assets
  Intragovernmental:
      Fund balance with Treasury                                              $               4,480      $               1,763
      Investments and related interest (Note 2)                                             985,330                    908,556
      Advances and prepayments                                                                       –                      65
  Total intragovernmental                                                                   989,810                    910,384

  Cash                                                                                           12                         11
  Accounts receivable, net                                                                      556                      1,710
  Property and equipment, net (Note 3)                                                       78,591                     71,090
  Advances and prepayments                                                                       29                         46

Total assets                                                                  $           1,068,998      $             983,241

Liabilities
  Intragovernmental:
      Accounts payable and other accrued liabilities                          $               1,501      $               3,368
  Total intragovernmental                                                                     1,501                      3,368

  Accounts payable                                                                           10,708                      8,935
  Accrued payroll and benefits                                                               29,814                     26,695
  Accrued annual leave                                                                       35,497                     32,681
  Other accrued liabilities                                                                  24,832                     25,764
  Deferred revenue                                                                          189,065                    180,284
  Other actuarial liabilities (Note 5)                                                       23,263                     19,459
  Total liabilities                                                                         314,680                    297,186

  Net position (Note 6)                                                                     754,318                    686,055

Total liabilities and net position                                            $           1,068,998      $             983,241




                            The accompanying notes are an integral part of these financial statements.

54	       Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
                          Office of the Comptroller of the Currency
                                   Statements of Net Cost
                            For the Years Ended September 30, 2009 and 2008
                                                    (in Thousands)

                                                                         Fiscal Year 2009                Fiscal Year 2008
Program Costs
 Supervise National Banks
   Intragovernmental                                                 $                 84,804        $                   80,247
   With the public                                                                   535,887                         490,310

 Subtotal – Supervise National Banks                                 $               620,691         $               570,557

 Regulate National Banks
   Intragovernmental                                                 $                 13,434        $                   13,093
   With the public                                                                     83,439                            80,324

 Subtotal - Regulate National Banks                                  $                 96,873        $                   93,417

 Charter National Banks
   Intragovernmental                                                 $                  2,171        $                    2,290
   With the public                                                                     12,900                            13,189

 Subtotal – Charter National Banks                                   $                 15,071        $                   15,479

Total Program Costs                                                  $               732,635         $               679,453
 Less: Earned revenues not attributed to programs                                   (774,702)                      (736,142)


Net Cost of Operations (Note 7)                                      $               (42,067)        $               (56,689)




                       The accompanying notes are an integral part of these financial statements.

                                                           Section Five: Financial Management Discussion and Analysis	       55
                             Office of the Comptroller of the Currency
                              Statements of Changes in Net Position
                               For the Years Ended September 30, 2009 and 2008
                                                         (in Thousands)


                                                                                Fiscal Year 2009           Fiscal Year 2008


Beginning Balances                                                          $             686,055      $             603,594

Other Financing Sources:
  Imputed financing (Note 8)                                                               26,196                     25,772

Net Cost of Operations                                                                     42,067                     56,689

Net Change                                                                                 68,263                     82,461

Ending Balances                                                             $             754,318      $             686,055




                          The accompanying notes are an integral part of these financial statements.

56	    Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
                            Office of the Comptroller of the Currency
                              Statements of Budgetary Resources
                              For the Years Ended September 30, 2009 and 2008
                                                      (in Thousands)

                                                                                  Fiscal Year 2009         Fiscal Year 2008
Budgetary Resources

Unobligated balance, brought forward, October 1                                  $            734,357 $                667,661
Spending authority from offsetting collections
 Earned
   Collected                                                                                  775,415                  740,544
   Receivable from Federal sources                                                                (403)                      (132)
 Subtotal                                                                                     775,012                  740,412

Total Budgetary Resources                                                        $          1,509,369 $              1,408,073

Status of Budgetary Resources
Obligations incurred                                                                         $715,998                 $673,716
Unobligated balance available                                                                 793,371                  734,357

Total Status of Budgetary Resources                                              $          1,509,369 $              1,408,073

Change in Obligated Balance
Obligated balance, net, beginning of period
  Unpaid obligations brought forward, October 1                                  $            165,568 $                151,721
  Uncollected customer payments from Federal sources, October 1                                 (3,904)                     (4,037)
Total unpaid obligated balance, net                                                           161,664                  147,684

Obligations incurred                                                                          715,998                  673,716
Gross outlays                                                                                (704,049)                (659,869)
Change in uncollected customer payments from Federal sources                                       403                         132
Obligated balance, net, end of period
 Unpaid obligations                                                                           177,517                  165,568
 Uncollected customer payments from Federal sources                                             (3,500)                     (3,904)
Obligated balance, net, end of period                                                         174,017                  161,664
Net outlays
 Gross outlays                                                                   $            704,049 $                659,869
 Offsetting collections                                                                      (775,415)                (740,544)

Net Outlays                                                                      $            (71,366) $               (80,675)

                          The accompanying notes are an integral part of these financial statements.

                                                              Section Five: Financial Management Discussion and Analysis	        57
Notes to the Financial                        Circular No. A-136, “Financial            costs have been classified according
Statements                                    Reporting Requirements.”                  to the entity responsible for these
                                                                                        transactions. Intragovernmental
Note 1—Significant                            The OCC’s financial state-                earned revenues are collections
Accounting Policies                           ments consist of Balance Sheets,          or accruals of revenue from other
A. Reporting Entity                           Statements of Net Cost, Statements        federal entities, and intragovern-
The OCC was created as a bureau               of Changes in Net Position, and           mental costs are payments or accru-
within the U.S. Department of the             Statements of Budgetary Resources.        als of expenditures to other federal
Treasury by an act of Congress in             The OCC presents its financial            entities.
1863. The mission of the OCC was              statements on a comparative basis,
to establish and regulate a system of         providing information for FYs 2009        C. Revenues and Other Financing
federally chartered national banks.           and 2008.                                 Sources
The National Currency Act of                                                            The OCC derives its revenue pri-
1863, rewritten and reenacted as the          The financial statements reflect          marily from assessments and fees
National Bank Act of 1864, autho-             both the accrual and budgetary            paid by national banks and income
rized the OCC to supervise national           bases of accounting. Under the            on investments in U.S. Treasury
banks and to regulate the lending             accrual method, revenues are rec-         securities. The OCC does not
and investment activities of feder-           ognized when earned, and expenses         receive congressional appropria-
ally chartered institutions.                  are recognized when a liability is        tions to fund any of the agency’s
                                              incurred, without regard to cash          operations. Therefore, the OCC
The financial statements report on            receipt or payment. The budgetary         does not have any unexpended
the OCC’s three major programs:               method recognizes the obligation          appropriations.
supervise, regulate, and charter              of funds according to legal require-
national banks. These programs                ments, which in many cases is made        By federal statute 12 USC 481, the
support the OCC’s overall mission             before the occurrence of an accrual-      OCC’s funds are maintained in a
by ensuring the safety and sound-             based transaction. Budgetary              U.S. government trust revolving
ness of the national banking system;          accounting is essential for compli-       fund. The funds remain available to
fostering a flexible legal and regula-        ance with legal constraints and con-      cover the annual costs of the OCC’s
tory framework that enables the               trols over the use of federal funds.      operations in accordance with poli-
national banking system to provide                                                      cies established by the Comptroller.
a full, competitive array of financial        In accordance with federal GAAP,
services; and promoting fair access           the preparation of financial state-       D. Earmarked Funds
to financial services and fair treat-         ments requires management to make         Earmarked funds are financed by
ment of bank customers.                       estimates and assumptions that affect     specifically identified revenues,
                                              the reported amounts of assets and        often supplemented by other financ-
B. Basis of Accounting and                    liabilities, the disclosure of contin-    ing sources, which remain available
Presentation                                  gent assets and liabilities at the date   over time. These specifically identi-
The accompanying financial state-             of the financial statements, and the      fied revenues and other financing
ments present the operations of               reported amounts of revenue and           sources are required by statute to
the OCC. The OCC’s financial                  expense during the reporting period.      be used for designated activities,
statements are prepared from the              Such estimates and assumptions            benefits, or purposes, and must be
agency’s accounting records in                could change in the future as more        accounted for separately from the
conformity with generally accepted            information becomes known, which          government’s general revenues. In
accounting principles for U.S.                could affect the amounts reported         accordance with Federal Accounting
federal agencies (federal GAAP)               and disclosed herein.                     Standards Advisory Board
and are presented in accordance                                                         Statement of Federal Financial
with the form and content guide-              Throughout these financial state-         Accounting Standards (SFFAS)
lines established by the Office               ments, intragovernmental assets,          No. 27, “Identifying and Reporting
of Management and Budget in                   liabilities, earned revenues, and         Earmarked Funds,” all of the OCC’s

58	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
revenue meets this criterion and         September 30, 2008, which is                G. Advances and Prepayments
constitutes an earmarked fund.           included in the OCC’s net invest-           Payments in advance for receipt of
                                         ment balance of $962.9 million for          goods and services are recognized
The federal government does              FY 2009 and $894.2 million for              as advances or prepayments and are
not set aside assets to pay future       FY 2008, and the obligated bal-             reported as assets on the Balance
benefits or other expenditures           ances not yet disbursed (e.g., unde-        Sheets.
associated with earmarked funds.         livered orders) of $174.0 million
Treasury securities are an asset to      for FY 2009 and $161.7 million for          H. Property and Equipment
the OCC and a liability to the U.S.      FY 2008. These balances reflect the         Property, equipment, and internal
Treasury. Because the OCC and            budgetary authority remaining for           use software (Note 3) are accounted
the U.S. Treasury are both parts of      disbursements against current or            for in accordance with SFFAS
the federal government, the corre-       future obligations.                         No. 6, “Accounting for Property,
sponding assets and liabilities offset                                               Plant, and Equipment,” and SFFAS
one another from the standpoint          F. Accounts Receivable                      No. 10, “Accounting for Internal
of the government as a whole. For        As presented in the OCC’s Balance           Use Software.”
this reason, they do not represent an    Sheets, accounts receivable represent
asset or a liability in the U.S. gov-    monies owed, primarily due from             Property and equipment purchases
ernment-wide financial statements.       the public, for services and goods          and additions are stated at cost. The
                                         provided that will be retained by the       OCC expenses acquisitions that do
Treasury securities provide the          OCC upon collection. Also included          not meet the capitalization criteria,
OCC with authority to draw upon          are civil money penalty amounts             such as normal repairs and main-
the U.S. Treasury to make future         assessed against people or banks for        tenance, when they are received or
payments or expenditures. When           violations of law, regulation, and          incurred.
the OCC requires redemption of           orders; unsafe or unsound practices;
these securities to make expen-          and breaches of fiduciary duty. When        In addition, property and equipment
ditures, the government finances         collected, these civil money pen-           are depreciated over their estimated
those expenditures from accumu-          alty amounts are transferred to the         useful lives using the straight-line
lated cash balances, by raising taxes    General Fund of the U.S. Treasury.          method. They are removed from
or other receipts, by borrowing          Collections of civil money penalties        the OCC’s asset accounts in the
from the public or repaying less         for the year totaled $5.7 million at        period of disposal, retirement, or
debt, or by curtailing other expen-      September 30, 2009, and $25.3 mil-          removal from service. Any differ-
ditures. This is the same way that       lion at September 30, 2008.                 ence between the book value of
the government finances all other                                                    the property and equipment and
expenditures.                            In accordance with SFFAS No. 1,             amounts realized is recognized as a
                                         “Accounting for Selected Assets             gain or loss in the same period that
E. Fund Balance With Treasury            and Liabilities,” the OCC updates           the asset is removed.
The Department of the Treasury           the allowance for loss on accounts
processes the OCC’s cash receipts        receivable account annually or as           I. Liabilities
and disbursements. Sufficient            needed to reflect the most cur-             Accounts Payable
funds are maintained in a U.S.           rent estimate of accounts that are          Liabilities represent the amounts
government trust revolving fund          likely to be uncollectible. Accounts        owed or accrued under contractual
and are available to pay current         receivable from the public are              or other arrangements governing
liabilities. The OCC’s Statements        reduced by an allowance for loss            the transactions, including operat-
of Budgetary Resources reflect           on doubtful accounts. The balance           ing expenses incurred but not paid.
the status of the agency’s Fund          in the OCC’s allowance for loss             Payments are made in a timely
Balance with Treasury. It consists       on accounts receivable account              manner in accordance with the
of the unobligated balance amount        was $9.0 thousand at September              Prompt Payment Act. Interest pen-
of $793.4 million at September           30, 2009, and $1.1 thousand at              alties are paid when payments are
30, 2009, and $734.4 million at          September 30, 2008.                         late. Discounts are taken when cost

                                                           Section Five: Financial Management Discussion and Analysis	   59
effective, and the invoice is paid             the OCC wrote-off civil money             Pursuant to the enactment of Public
within the discount period.                    penalty amounts in excess of              Law 99-335, which established
                                               $1.2 million.                             the Federal Employees Retirement
Accrued Annual Leave                                                                     System, most employees hired after
The OCC accounts for liabilities               Commitments and Contingencies             December 31, 1983, are auto-
in accordance with SFFAS No. 5,                The SFFAS No. 12, “Recognition            matically covered by the Federal
“Accounting for Liabilities of the             of Contingent Liabilities Arising         Employees Retirement System and
Federal Government.” In accordance             from Litigation,” defines a con-          Social Security. Employees hired
with SFFAS No. 5, annual leave is              tingency as an existing condition,        before January 1, 1984, are covered
accrued and funded by the OCC as it            situation, or set of circumstances        by the Civil Service Retirement
is earned, and the accrual is reduced          that involves an uncertainty as to        System, with the exception of those
as leave is taken or paid. Each year,          possible gain or loss. The uncer-         who, during the election period,
the balance in the accrued annual              tainty will be resolved when one or       joined the Federal Employees
leave account is adjusted to reflect           more future events occur or fail to       Retirement System.
actual leave balances with current             occur. The OCC recognizes con-
pay rates. Sick leave and other types          tingencies as liabilities when past       Thrift Savings Plan
of leave are expensed as taken.                events or exchange transactions           OCC employees are eligible to par-
                                               occur, a future loss is probable,         ticipate in the federal Thrift Savings
Deferred Revenue                               and the loss amount can be reason-        Plan. For those employees under
The OCC’s activities are primar-               ably estimated. For FY 2009, the          the Federal Employees Retirement
ily financed by assessments on                 OCC has two contingent liabilities.       System, a Thrift Savings Plan
assets held by national banks and              A claimant has brought suit under         account is automatically estab-
the federal branches of foreign                the Equal Access to Justice Act,          lished, and the OCC contributes a
banks. These assessments are due               claiming entitlement to reimburse-        mandatory 1.0 percent of base pay
March 31 and September 30 of each              ment for related legal fees and costs     to this account. In addition, the
year, based on asset balances as               incurred. There is a reasonable           OCC matches employee contribu-
reflected on Reports of Condition              possibility that the OCC may incur        tions up to an additional 4.0 percent
and Income (call reports) dated                a loss of between $0 and                  of pay, for a maximum OCC contri-
December 31 and June 30, respec-               $772.1 thousand as a result. A            bution of 5.0 percent of base pay.
tively. Assessments are paid mid-              second claimant has alleged dis-
cycle and are recognized as earned             crimination based on age, race, sex,      OCC 401(k) Plan
revenue on a straight-line basis over          reprisal, and a hostile work environ-     In addition to the federal Thrift
the six months following the call              ment. There is a reasonable possi-        Savings Plan, employees can elect
report date. The unearned portions             bility that the OCC may incur a loss      to contribute up to 10.0 percent of
of collected assessments are classi-           of between $0 and $250.0 thousand         their base pay in the OCC-sponsored
fied as deferred revenue.                      plus interest, and an additional loss     401(k) plan, subject to Internal
                                               of between $0 and $300.0 thousand         Revenue Service regulations.
Civil Money Penalties                          as a result. In FY 2008, the OCC          Currently, the OCC contributes a
The custodial liability amount of              neither identified nor recognized         fixed 2.0 percent of the base pay to
$0.5 million and $1.7 million as               any such contingent liabilities.          the plan for all qualified employees,
of September 30, 2009 and 2008,                                                          regardless of whether they contrib-
respectively, represents the amount            J. Employment Benefits                    ute to the plan or not. In addition,
of accounts receivable that, when              Retirement Plan                           the OCC will match an additional
collected, will be deposited to the            OCC employees are eligible to             1.0 percent employee contribution,
General Fund of the U.S. Treasury.             participate in either the Civil Service   for a maximum OCC contribu-
Included in the custodial liability            Retirement System or the Federal          tion of 3.0 percent of base pay. The
are amounts collected for fines,               Employees Retirement System,              OCC contracts with an independent
civil money penalties, and related             depending on when they were               public accounting firm to perform an
interest assessments. In FY 2009,              hired by the federal government.          audit of the 401(k) plan and related

60	      Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
financial statements. The audit was     is earned over the period from the           objectives and holdings comparable
performed on the plan administered      employee’s date of hire to the date          to those within the OCC’s invest-
by Prudential Financial Incorporated    on which the employee is assumed             ment portfolio.
before its transfer to Charles          to retire. The valuation of the plan
Schwab & Company Incorporated           is conducted in accordance with              Investments are stated at amortized
in December 2008 and on amounts         generally accepted actuarial prin-           cost and the related accrued interest.
transferred to Schwab at month-end.     ciples and practices, including the          Premiums and discounts are amor-
The financial statements for the plan   applicable Actuarial Standards of            tized over the term of the investment
received an unqualified opinion.        Practice as issued by the Actuarial          using the effective yield method.
                                        Standards Board.                             The fair market value of investment
Federal Employees Health                                                             securities was $1,006.0 million
Benefits and Federal Employees          Note 2—Investments and                       at September 30, 2009, and
Group Life Insurance                    Related Interest                             $922.2 million at September 30,
Employees and retirees of the                                                        2008. The total return on the
OCC are eligible to participate in      The OCC invests available funds              OCC’s portfolio, which includes
Federal Employees Health Benefits       in non-marketable U.S. Treasury              income from interest and the
and Federal Employees Group             securities and has the positive intent       change in the market value of
Life Insurance plans that involve       and ability to hold all U.S. Treasury        the securities held in the portfolio
a cost sharing of bi-weekly cover-      securities to maturity. It does not          during the reporting period, was
age premiums by employee and            maintain any available-for-sale              3.9 percent and 7.0 percent, respec-
employer. The Office of Personnel       or trading securities. The OCC               tively. The overall portfolio earned
Management administers both of          manages risk by diversifying the             an annual yield of 2.9 percent for
these employee benefit plans.           agency’s portfolio across maturi-            FY 2009 and 3.8 percent for FY 2008.
                                        ties within established parameters.
Postretirement Life Insurance           Diversifying maturities of the               The yield-to-maturity on the
Benefit Plan                            individual securities is meant to            non-overnight portion of the OCC’s
The OCC sponsors a life insurance       help manage the inherent risk of             investment portfolio ranged from
benefit plan for current and retired    interest rate fluctuations. As part of       0.54 percent to 4.6 percent in
employees. This plan is a defined       the agency’s investment strategy,            FY 2009, and from 1.5 percent to
benefit plan for which the benefit      the OCC evaluates, at least annu-            4.7 percent in FY 2008.
                                        ally, performance benchmarks with

Fiscal Year 2009 Investments and Related Interest (in Thousands)
                                                                             Amortized
                                                       Amortization                        Investments,     Market Value
                                            Cost                            (Premium)/
                                                         Method                                Net           Disclosure
                                                                             Discount
 Intragovernmental Securities
  Non-Marketable Market Based           $ 989,294     Effective Yield   $        (7,465)   $   981,829     $    1,005,963
  Accrued Interest                           3,501                                    0          3,501                  3,501
 Total Intragovernmental Investments    $ 992,795                       $       (7,465)    $   985,330     $    1,009,464


Fiscal Year 2008 Investments and Related Interest (in Thousands)
                                                                             Amortized
                                                       Amortization                        Investments,     Market Value
                                            Cost                            (Premium)/
                                                         Method                                Net           Disclosure
                                                                             Discount
 Intragovernmental Securities
  Non-Marketable Market Based           $   908,442   Effective Yield   $        (3,725)   $   904,717     $      922,248
  Accrued Interest                            3,839                                    0          3,839                 3,839
 Total Intragovernmental Investments    $   912,281                     $        (3,725)   $   908,556     $      926,087



                                                          Section Five: Financial Management Discussion and Analysis	           61
Fiscal Year 2009 Property and Equipment, Net (in Thousands)

                                       Capitalization                                              Accumulated           Net Book
         Class of Assets                                    Useful Life          Cost
                                        Threshold                                                  Depreciation           Value
 Leasehold Improvements                $            50             5-20    $          57,730   $        (30,089)     $         27,641
 Equipment                                          50             3-10               26,549            (19,138)                7,411
 Internal Use Software                             500                5               65,080            (44,871)               20,209
 Internal Use Software-Dev                         500             N/A                10,978                 —                 10,978
 Leasehold Improvements-Dev                         50             N/A                12,352                 —                 12,352
 Total                                                                     $      172,689      $        (94,098)     $         78,591

Fiscal Year 2008 Property and Equipment, Net (in Thousands)

                                       Capitalization                                              Accumulated           Net Book
         Class of Assets                                    Useful Life          Cost
                                        Threshold                                                  Depreciation           Value
 Leasehold Improvements                $            50             5-20     $         44,586   $        (24,256)     $         20,330
 Equipment                                          50             3-10               25,896            (17,731)                8,165
 Internal Use Software                             500                 5              57,708            (36,411)               21,297
 Internal Use Software-Dev                         500              N/A               13,571                 —                 13,571
 Leasehold Improvements-Dev                         50              N/A                7,727                 —                  7,727
 Total                                                                      $     149,488      $        (78,398)     $         71,090


Note 3—Property and                            The figures above summarize prop-               Under existing commitments, the
Equipment, Net                                 erty and equipment balances as of               minimum yearly lease payments
                                               September 30, 2009 and 2008.                    through FY 2015 and thereafter are
Property and equipment purchased
                                                                                               shown below.
at a cost greater than or equal to the
noted thresholds below with useful             Note 4—Leases
                                                                                               Fiscal Year 2009 Future Lease
lives of three years or more are cap-          The OCC leases office space                     Payments (in Thousands)
italized at cost and depreciated or            for headquarters operations in                          Fiscal Year            Amount
amortized, as applicable. Leasehold            Washington, D.C., and for district
                                                                                                          2010            $    38,366
improvements are amortized on a                and field operations. The lease agree-
                                                                                                          2011                 33,417
straight-line basis over the lesser            ments expire at various dates. In FY
of the terms of the related leases             2009, the OCC entered into nine                            2012                 22,003

or their estimated useful lives. All           new lease occupancy and equipment                          2013                 18,068
other property and equipment are               agreements that ranged between 41                          2014                 15,007
depreciated or amortized, as appli-            and 127 months in various locations                  2015 and Beyond            51,808
cable, on a straight-line basis over           throughout the continental United                          Total           $ 178,669
their estimated useful lives.                  States, as leases expired. For one
                                               of these new lease agreements—                  Fiscal Year 2008 Future Lease
                                                                                               Payments (in Thousands)
For FYs 2009 and 2008, per                     upgrading the OCC’s computer
SFFAS No. 6, “Accounting for                   systems and equipment to ensure                         Fiscal Year            Amount
Property, Plant and Equipment,”                reliable connectivity and improve                          2009            $    34,838
the OCC reported $2.2 million                  broadband access for its bank exam-                        2010                 33,702
and $4.9 million of fully depre-               iners—orders were placed to begin in                       2011                 27,858
ciated assets removed from                     FY 2010. All of the OCC’s leases are                       2012                 15,580
service and recognized a loss of               treated as operating leases. All annual                    2013                 12,480
$45.5 thousand and $54.1 thousand              lease costs under the operating leases
                                                                                                    2014 and Beyond            52,614
on the disposal of other assets,               are included in the Statements of Net
                                                                                                          Total           $ 177,072
respectively.                                  Cost.

62	      Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
Note 5—Other Actuarial                    Federal Employees’ Compensation                 plans is the Projected Unit Credit
Liabilities                               Act are administered by the U.S.                method, a benefit valuation
                                          Department of Labor and later                   method, according to Statement of
The OCC’s other actuarial
                                          billed to the OCC. The FYs 2009                 Financial Accounting Standards
liabilities are reported on the
                                          and 2008 present value of these                 (SFAS) No. 87, “Employers’
Balance Sheets and include the
                                          estimated outflows is calculated                Accounting for Pensions,” used to
components, as shown in the                                                               determine the actuarial present
                                          using a discount rate of 4.2 percent
following figure.                                                                         value of the benefit obligation and
                                          in the first year and 4.7 percent in
                                          subsequent years, and 4.4 percent               the related service cost. The
Federal Employees’                        in the first year and 4.8 percent in            weighted-average discount rate
Compensation Act                          subsequent years, respectively.                 used in determining the accumu-
The Federal Employees’                                                                    lated postretirement benefit
Compensation Act provides                 Postretirement Life Insurance                   obligation was 5.5 percent. Gains
income and medical cost protection        Benefits                                        or losses owing to changes in
to cover federal civilian employ-         The OCC sponsors a life insur-                  actuarial assumptions are amor-
ees injured on the job, employees         ance benefit plan for current and               tized over the service life of the
who have incurred a work-related          retired employees. This plan is a               plan. Because the OCC’s liability
occupational disease, and benefi-         defined benefit plan. The figure on             experience, including changes in
ciaries of employees whose death          the bottom of this page sets forth              assumptions, has been less favor-
is attributable to a job-related          the plan’s funded status reconciled             able this fiscal year than last, the
injury or occupational disease.           with the actuarial liability.                   accumulated SFAS No. 158,
                                          The actuarial cost method used to               “Employers’ Accounting for
Claims incurred for benefits for
                                          determine costs for the retirement              Defined Benefit Pension and Other
OCC employees covered under the
                                                                                          Postretirement Plans,” charge has
                                                                                          risen to $3.2 million, resulting in
Actuarial Liabilities Category (in Thousands)
                                                                                          an increase of $5.0 million to the
                                                      Fiscal Year        Fiscal Year      funded status adjustment for FY
                    Component
                                                         2009               2008
                                                                                          2009. The actuarial assumptions
 Federal Employees’ Compensation Act              $        1,589     $        2,381
                                                                                          and methods used in calculating
 Postretirement Life Insurance Benefits                   21,674             17,078       actuarial amounts comply with the
 Total Actuarial Liabilities                      $       23,263     $       19,459       requirements for postretirement
                                                                                          benefits other than pensions as set
Accrued Postretirement Benefit Liability and Net Periodic
Postretirement Benefit Cost (in Thousands)                                                forth in SFAS No. 106,
                                                                                          “Employers’ Accounting for
                                                       Fiscal Year       Fiscal Year
                 Liability Component                                                      Postretirement Benefits Other
                                                          2009              2008
 Accumulated Postretirement Benefit Obligation,                                           Than Pensions,” and for health
                                                      $    17,078    $       17,464
   Beginning of Period                                                                    benefit plans as set forth in
 Net Periodic Benefit Cost                                  1,887              1,845      American Institute of Certified
 Expected Benefit Distribution                               (442)             (403)      Public Accountants Statement of
 SFAS 158 Funded Status Adjustment                          3,151            (1,828)      Position 92-6.
 Total Postretirement Benefit Liability               $    21,674    $       17,078
 Cost Component                                                                           Net periodic postretirement
 Service Cost                                         $       595    $          607
                                                                                          benefit costs for life insurance
                                                                                          provisions under the plan include
 Interest Cost                                              1,119              1,028
                                                                                          the components as shown on this
 Amortization of Transition Obligation                        173               173
                                                                                          page. The total benefit expenses
 Amortization of Unrecognized Loss                              0                 37
                                                                                          are recognized as program costs
 Total Postretirement Benefit Cost                    $     1,887    $         1,845
                                                                                          in the Statements of Net Cost.

                                                                Section Five: Financial Management Discussion and Analysis	   63
Net Position Availability (in Thousands)                                                    Changes in Net Position and in
                                                    Fiscal Year           Fiscal Year
                                                                                            Note 9, Reconciliation of Net Cost
                Components                                                                  of Operations to Budget.
                                                       2009                  2008
 Contingency Reserve                           $           396,911    $         409,061
 Asset Replacement Reserve                                 164,400              116,800
                                                                                            The following figure illustrates the
                                                                                            OCC’s operating expenses catego-
 Set Aside for Ongoing Operations:
                                                                                            ries for FY 2009 and 2008.
      Undelivered Orders                                    66,134               52,743
      Consumption of Assets                                 97,554               81,606
                                                                                            Note 8—Imputed Costs
      Capital Investments                                   29,319               25,845
                                                                                            and Financing Sources
 Net Position                                  $           754,318    $         686,055
                                                                                            In accordance with SFFAS
                                                                                            No. 5, “Liabilities of the Federal
Note 6—Net Position                              The figure above reflects changes          Government,” federal agen-
Net Position represents the net                  for FY 2009 and 2008.                      cies must recognize the por-
result of operations since inception                                                        tion of employees’ pension and
and includes cumulative amounts                  Note 7—Net Cost of                         other retirement benefits to be
related to investments in capital-               Operations                                 paid by the Office of Personnel
ized assets held by the OCC. The                 The Net Cost of Operations                 Management trust funds. These
OCC sets aside a portion of its net              represents the OCC’s operating             amounts are recorded as imputed
position as contingency and asset                costs deducted from assessments            costs and imputed financing for
replacement reserves for use at the              and fees paid by national banks            other agencies. Annually, the
Comptroller’s discretion. In addi-               and investment interest income             Office of Personnel Management
tion, funds are set aside to cover               earned. The revenue earned from            provides federal agencies with
the cost of ongoing operations.                  reimbursable services is shown             cost factors for the computation of
                                                 as an offset against the full cost         current year imputed costs. These
The contingency reserve supports                 of the program to arrive at its            cost factors are multiplied by the
the OCC’s ability to accomplish                  net cost. The imputed financing            current year salary or number
its mission in the case of foresee-              sources for net cost of operations         of employees, as applicable, to
able, but rare events. Foreseeable,              are reported on the Statements of          provide an estimate of the imputed
but rare, events are beyond the
control of the OCC, such as a                      Net Cost of Operations by (in Thousands)
major change in the national
                                                                                                       Fiscal Year   Fiscal Year
banking system or for instance, a                                 Expense Category
                                                                                                          2009          2008
fire, flood, or significant impair-                Personnel Compensation and Benefits             $      483,484    $   452,936
ment of its information technology                 Contractual Services                                     93,159        79,694
systems.
                                                   Rent, Communication, and Utilities                       49,586        43,946
                                                   Travel and Transportation of Persons & Things            46,093        43,651
The asset replacement reserve
funds the replacement of informa-                  Imputed Costs                                            26,196        25,772
tion technology equipment, lease-                  Depreciation                                             17,930        15,900
hold improvements, and furniture                   Other                                                    16,187        17,554
replacements for future years. The                 Total                                           $      732,635    $   679,453
target level for the replacement
reserve is established annually
based on the gross value of exist-
ing property and equipment plus
a growth rate factor and a margin
for market cost adjustments.


64	        Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
financing that the Office of             Note 9—Reconciliation of                     decrease resulted from a
Personnel Management trust funds         Net Cost of Operations to                    $34.6 million increase in resources
will provide for each agency.            Budget                                       available netted against the
                                         The reconciliation of Net Cost               increase of $42.3 million in
The imputed costs categories for         of Operations to Budget demon-               resources used (obligations
FY 2009 and 2008 are listed in the       strates the relationship between             incurred) and the $0.4 million
figure below. These imputed costs        the OCC’s proprietary (net cost              increase in imputed financing. The
are included on the Statements           of operations) and budgetary                 increase in net resources available
of Net Cost. The financing               accounting (net obligations)                 is primarily because of increased
sources absorbed by the Office           information. For FY 2009, the                assessments, while the increase
of Personnel Management are              statement on page 66 shows                   in resources used results from
reflected on the Statements of           $32.8 million in excess resources            various office space and informa-
Changes in Net Position and in           available to finance activities,             tion technology investments as well
Note 9, Reconciliation of Net Cost       a net decrease of $8.1 million over          as salary and employee benefits, as
of Operations to Budget.                 September 30, 2008. This net                 shown on the next page.

Imputed Costs Absorbed by Office of Personnel Management (in Thousands)

                                              Fiscal Year       Fiscal Year
             Component
                                                 2009              2008
Retirement                                $        11,358   $          10,848
Federal Employees Health Benefits                  14,804              14,892
Federal Employees Group Life Insurance                 34                   32
Total Imputed Costs Covered by OPM        $        26,196   $          25,772




                                                            Section Five: Financial Management Discussion and Analysis	   65
                        Reconciliation of Net Cost of Operations to Budget
                                                             (in Thousands)



                                                                                        Fiscal Year 2009        Fiscal Year 2008
 Resources Used to Finance Activities:
 Budgetary Resources Obligated
      Obligations incurred                                                              $        715,998    $            673,716
      Less: Spending authority from offsetting collections                                      (775,011)               (740,412)
      Net obligations                                                                            (59,013)                 (66,696)
 Other Resources
      Imputed financing sources (Note 8)                                                          26,196                   25,772
 Total resources used to finance activities                                                      (32,817)                (40,924)


 Resources Used to Finance Items Not Part of the Net Cost of Operations
      Change in budgetary resources obligated for goods,
                                                                                                  (2,070)                  (3,836)
       services, and benefits ordered but not yet provided
      Resources that finance the acquisition of assets                                           (25,431)                 (32,107)
      Other resources or adjustments to net obligated
                                                                                                       3                       92
       resources that do not affect net cost of operations
 Total resources used to finance items not part
   of the Net Cost of Operations                                                                 (27,498)                (35,851)

 Total resources used to finance the Net Cost
                                                                                        $        (60,315)   $            (76,775)
   of Operations


 Components of the Net Cost of Operations That Will Not Require or Generate Resources
 in the Current Period:
 Components Requiring or Generating Resources in Future Periods:
      Change in deferred revenue                                                                   8,781                    8,904
      Total components that will require or generate resources in
                                                                                                   8,781                    8,904
        future periods

 Components not Requiring or Generating Resources:
      Depreciation and amortization                                                               17,885                   15,846
      Net increase in bond premium                                                                (8,463)                  (4,718)
      Other                                                                                           45                       54
      Total components that will not require or generate resources                                 9,467                   11,182
 Total components of net cost of operations that will not
                                                                                                  18,248                   20,086
  require or generate resources in the current period


 Net Cost of Operations                                                                 $        (42,067)   $            (56,689)




66	        Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
        Independent Auditor’s Report on Financial Statements


Inspector General, Department of the Treasury, and
the Comptroller of the Currency:


We have audited the accompanying balance sheets of the Office of the
Comptroller of the Currency (OCC) as of September 30, 2009 and 2008,
and the related statements of net cost, changes in net position and budget-
ary resources for the years then ended. These financial statements are the
responsibility of the management of OCC. Our responsibility is to express
an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards gener-
ally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States; and applicable provisions of
Office of Management and Budget Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements, as amended. Those standards require
that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing
the accounting principles used and significant estimates made by manage-
ment, as well as evaluating the overall financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in
all material respects, the financial position of the OCC as of September 30,
2009 and 2008, and its net costs, changes in net position, and budgetary
resources for the years then ended in conformity with accounting principles
generally accepted in the United States of America.

The information in Section Five, pages 47 through 53, and pages 73 and
74 of OCC’s fiscal year 2009 Annual Report is not a required part of the
financial statements but is supplementary information required by account-
ing principles generally accepted in the United States of America. We have
applied certain limited procedures, which consisted principally of inquiries
of management regarding the methods of measurement and presentation
of this information. However, we did not audit this information, and we
express no opinion on it.




                 Section Five: Financial Management Discussion and Analysis	   67
Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a whole. The
information included in Sections One, Two, Three, Four, and pages 74 through 77 of OCC’s fiscal year 2009 Annual
Report is presented for purposes of additional analysis and is not a required part of the financial statements. We did
not audit this information, and we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued reports dated October 30, 2009, on our
consideration of the OCC’s internal control over financial reporting, and on our tests of its compliance with certain
provisions of applicable laws, regulations, and contracts. These reports are an integral part of an audit performed in
accordance with Government Auditing Standards, and should be read in conjunction with this report in considering
the results of our audits.




October 30, 2009




68	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
  Independent Auditor’s Report on Internal Control over Financial
                           Reporting

Inspector General, Department of the Treasury, and
the Comptroller of the Currency:


We have audited the balance sheet and the related statements of net cost,
changes in net position, and budgetary resources, hereinafter referred to
as “financial statements” of the Office of the Comptroller of the Currency
(OCC) as of and for the year ended September 30, 2009, and have issued
our report thereon dated October 30, 2009. We conducted our audit in
accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained
in Government Auditing Standards, issued by the Comptroller General of
the United States; and the applicable provisions of Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements, as amended.

In planning and performing our audit, we considered the OCC’s internal
control over financial reporting by obtaining an understanding of the design
effectiveness of OCC’s internal control, determined whether these internal
controls had been placed in operation, assessed control risk, and performed
tests of controls as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements. We lim-
ited our internal control testing to those controls necessary to achieve the
objectives described in OMB Bulletin No. 07-04 and Government Auditing
Standards. We did not test all internal controls relevant to operating objec-
tives as broadly defined by the Federal Managers’ Financial Integrity Act
of 1982, such as those controls relevant to ensuring efficient operations. The
objective of our audit was not to provide an opinion on the effectiveness
of OCC’s internal control over financial reporting. Consequently, we do
not provide an opinion on the effectiveness of OCC’s internal control over
financial reporting.

Our consideration of the internal control over financial reporting was for the
limited purpose described in the preceding paragraph and was not designed
to identify all deficiencies in internal control over financial reporting that
might be deficiencies, significant deficiencies, or material weaknesses. A
deficiency in internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of perform-
ing their assigned functions, to prevent or detect and correct misstatements
on a timely basis. A material weakness is a deficiency, or a combination of
deficiencies, in internal control, such that there is a reasonable possibility
that a material misstatement of the entity’s financial statements will not be
prevented, or detected and corrected on a timely basis.




                  Section Five: Financial Management Discussion and Analysis	   69
We did not identify any deficiencies in internal control over financial reporting that we consider to be material
weaknesses, as defined above.

We noted certain matters involving internal control and its operation that we reported to management of OCC in a
separate letter dated October 30, 2009.

This report is intended solely for the information and use of the Management of the OCC, the Department of the
Treasury Office of Inspector General, the Government Accountability Office, OMB, and the U.S. Congress, and is
not intended to be, and should not be used by anyone other than these specified parties. However, this report is a
matter of public record and its distribution is not limited.




October 30, 2009




70	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
          Independent Auditor’s Report on Compliance with
                       Laws and Regulations

The Inspector General, Department of the Treasury, and
the Comptroller of the Currency:


We have audited the balance sheets and the related statements of net cost,
changes in net position, and budgetary resources, hereinafter referred to
as “financial statements” of the Office of the Comptroller of the Currency
(OCC) as of and for the years ended September 30, 2009 and 2008, and have
issued our report thereon dated October 30, 2009. We conducted our audits
in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained
in Government Auditing Standards, issued by the Comptroller General of
the United States; and, the applicable provisions of Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements, as amended.

The management of the OCC is responsible for complying with laws and
regulations applicable to the OCC. As part of obtaining reasonable assur-
ance about whether the OCC’s financial statements are free of material
misstatement, we performed tests of its compliance with certain provisions
of laws and regulations and contracts, noncompliance with which could
have a direct and material effect on the determination of financial state-
ment amounts, and certain provisions of other laws and regulations speci-
fied in OMB Bulletin No. 07-04, including certain requirements referred
to in Section 803(a) of the Federal Financial Management Improvement
Act (FFMIA) of 1996. We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with
all laws, regulations and contracts applicable to the OCC. However, our
objective was not to provide an opinion on overall compliance with laws,
regulations and contracts. Accordingly, we do not express such an opinion.

The results of our tests of compliance with laws, regulations and contracts
described in the preceding paragraph, exclusive of FFMIA, disclosed
no instances of noncompliance that are required to be reported under
Government Auditing Standards or OMB Bulletin No. 07-04.

Under FFMIA, we are required to report whether the OCC’s financial man-
agement systems substantially comply with (1) federal financial manage-
ment systems requirements, (2) applicable federal accounting standards,
and (3) the United States Government Standard General Ledger at the trans-
action level. To meet this requirement, we performed tests of compliance
with FFMIA section 803(a) requirements.




                 Section Five: Financial Management Discussion and Analysis	   71
The results of our tests disclosed no instances in which the OCC’s financial management systems did not substan-
tially comply with the three requirements discussed in the preceding paragraph.

This report is intended solely for the information and use of the Management of the OCC, the Department of the
Treasury Office of Inspector General, the Government Accountability Office, OMB, and U.S. Congress and is not
intended to be, and should not be used by anyone other than these specified parties. However, this report is a matter
of public record and its distribution is not limited.




October 30, 2009




72	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
Other Accompanying Information

Performance Measures and Results

The OCC’s FY 2009 performance measures, workload indicators, customer service standards, and results are
presented below.

Figure 16: Performance Measures, Workload Indicators, Customer Service Standards, and Results

                                  Performance Measure                                Fiscal     Fiscal    Fiscal      Fiscal Year
 Strategic                                                                                                               2009
                                   Workload Indicator                                 Year       Year      Year
   Goal
                                Customer Service Standard                            2006       2007      2008     Target Actual ¹
 I. A safe and sound national banking system
             Percentage of national banks with composite CAMELS rating
                                                                                      95%        96%       92%      90%          82%
             of 1 or 2 2
             Rehabilitated problem national banks as a percentage of the
                                                                                      46%        52%       47%      40%          29%
             problem national banks one year ago (CAMELS 3, 4 or 5) 2
             Percentage of national banks that are categorized as well
                                                                                      99%        99%       99%      95%          84%
             capitalized 2
             Percentage of critically undercapitalized banks on which
             responsible action is taken within 90 calendar days after they           N/A 3     100%      100%      100%         100%
             become critically undercapitalized
             Average survey response that the report of examination clearly
             communicated examination findings, significant issues and the            1.30       1.32      1.28      1.75        1.34
             corrective actions management needed to take 4
 II. Fair access to financial services and fair treatment of bank customers
             Percentage of national banks with consumer compliance rating
                                                                                      94%        97%       97%      94%          97%
             of 1 or 2
             Percentage of qualified intermediate small banks to which
             the OCC offers to provide consultation on the Community                  100%      100%      100%      100%         100%
             Reinvestment Act and community development opportunities
             Percentage of consumer complaints closed within 60 calendar
                                                                                      36%        18%       12%      80%           8%
             days of receipt 5
             Number of consumer complaints opened/closed during the                  31,827    33,655     41,656 38,000      58,810
             fiscal year 5                                                           32,925    26,245     30,986 36,000      32,533
 III. A flexible legal and regulatory framework that enables the national banking system to provide a full, competitive array
 of financial services
             Percentage of external legal opinions issued within established
                                                                                      89%        96%       92%      86%          88%
             time frames
             Number of external legal opinions issued during the fiscal year 6         70         81        73        60          53
             Percentage of licensing applications and notices filed
                                                                                      36%        38%       46%      40%          51%
             electronically
             Number of licensing applications and notices filed electronically
                                                                                      1,367     1,261     1,525     1,200        1,681
             during the fiscal year
             Percentage of licensing applications and notices completed
                                                                                      94%        96%       95%      95%          95%
             within established time frames
             Number of licensing applications and notices completed during
                                                                                      2,425     2,278     1,843     1,500        1,471
             the fiscal year 7
             Average survey rating of the overall licensing services
                                                                                      1.20       1.20      1.22     < 1.5        1.25
             provided by OCC 8



                                                                   Section Five: Financial Management Discussion and Analysis	          73
Figure 16: Performance Measures, Workload Indicators, Customer Service Standards, and Results (cont’d)

                                       Performance Measure                                       Fiscal     Fiscal     Fiscal       Fiscal Year
    Strategic                                                                                                                          2009
                                        Workload Indicator                                        Year       Year       Year
      Goal
                                     Customer Service Standard                                   2006       2007       2008      Target Actual¹
    IV. An expert, highly motivated, and diverse workforce that makes effective use of OCC resources
                Total OCC costs relative to every $100,000 in bank assets regulated              $ 8.57     $ 8.89     $ 8.39    $ 9.22     $ 8.81

Source: OCC data for fiscal years 2009 and 2008.
1
  Fiscal year 2009 performance numbers shown in bold italics are estimates. Some performance data is obtained from quarterly call reports from
banks. The September 30, 2009, call reports are not due until 30 or 45 days after the end of the period. Additionally, examinations concluded
late in the fiscal year are not finalized for another 30 to 60 days. As a result, complete fiscal year data is not yet available; therefore, estimates
have been reported.
2
  These performance measures for fiscal year 2009 are below target primarily because of the difficult economic situation the entire financial
industry is currently facing. The OCC continues to closely monitor the capital levels and performance of all our banks and when necessary, initi-
ate formal and informal agreements to enhance our level of supervision.
3
  There were no critically undercapitalized national banks in fiscal year 2006.
4
  The examination survey is based on a five-point scale, in which 1 indicates complete agreement and 5 indicates complete disagreement.
5
  In fiscal year 2006, the OCC revised reporting on the consumer complaints measure and related workload indicators to exclude inquiries and
appeals at the recommendation of the Government Accountability Office. As such, prior year reporting is no longer presented because the data
is not comparable and fiscal year 2006 is the baseline year.
6
  For fiscal year 2009, the number of external legal opinions issued is below target because legal opinions are initiated externally by banks
requesting interpretations from the OCC and the OCC can only base projections on past history and anticipated activity.
7
  The number of total licensing filings has declined from the previous fiscal year because the number is based on actual applications received
that also declined. However, the number of applications filed electronically increased for the fiscal year.
8
  The licensing survey is based on a five-point scale, in which 1 indicates outstanding and 5 indicates significantly deficient.



Improper Payments                                  additional erroneous payments.                      and relocation payments, thereby
Information Act                                    The OCC corrected and recovered                     helping to prevent erroneous pay-
The Improper Payments                              all erroneous payments made dur-                    ments. The OCC uses a sampling
Information Act of 2002, as                        ing the year. Figure 17 summarizes                  approach to audit travel vouch-
implemented by the Office of                       the OCC’s erroneous payments for                    ers and data-mining techniques to
Management and Budget, requires                    FY 2009 and 2008.                                   detect potential erroneous payments
federal agencies to review all                                                                         for post-payment audit activities.
program and activities annually                    Methodology for Identifying                         Immediately upon their identifica-
and identify those that may be                     Improper Payments                                   tion, the OCC initiates collection
susceptible to significant errone-                 The OCC conducts both prepay-                       activity to ensure recovery of funds.
ous payments. The OCC analyzed                     ment reviews and post-payment
payments (excluding payroll) made                  audits to identify improper or                      Based on the analyses, the OCC
during FY 2009 and identified                      erroneous payments. The OCC                         has concluded that erroneous pay-
30 erroneous payments requir-                      conducts a 100 percent prepayment                   ments do not exceed the Treasury
ing adjustments totaling $29,476.                  review of all supplier invoices and                 threshold, which is both 2.5 percent
Erroneous payments are identi-                     payment files prior to transmission                 of nonpayroll payments and $10
fied and monitored daily to ensure                 to the Treasury Department. As part                 million. The OCC is compliant
prompt recovery. The underlying                    of its sensitive payments program,                  with the Erroneous Payments and
causes and contributing factors are                the OCC conducts a 100 percent                      Recovery Act of 2001 and the
identified quickly, and control mea-               prepayment review of executive                      Improper Payments Information
sures are implemented to prevent                   and international travel vouchers                   Act of 2002.

Figure 17: Erroneous Payments
                                              Fiscal Year 2009             Fiscal Year 2008
    Number of payments                                          30                          38
    Dollar value of adjustments           $                29,476      $               31,895

Source: OCC data for fiscal years 2009 and 2008.



74	        Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
Assurance Statement


The Office of the Comptroller of the Currency (OCC) has made a conscientious effort during fiscal year (FY)
2009 to meet the internal control requirements of the Federal Managers’ Financial Integrity Act (FMFIA), the
Federal Financial Management Improvement Act (FFMIA), and Office of Management and Budget (OMB)
Circular A-123.

OCC systems of management control are designed to ensure that

  a)	   Programs achieve their intended results;
  b)	   Resources are used in accordance with the agency’s mission;
  c)	   Programs and resources are protected from waste, fraud, and mismanagement;
  d)	   Laws and regulations are followed;
  e)	   Controls are sufficient to minimize improper or erroneous payments;
  f)	   Performance information is reliable;
  g)	   System security is in substantial compliance with relevant requirements;
  h)	   Continuity of operations planning in critical areas is sufficient to reduce risk to reasonable levels; and
  i)	   Financial management systems are in compliance with federal financial systems standards, i.e., FMFIA
        Section 4 and FFMIA.

I am providing unqualified assurance that the above-listed management control objectives were achieved by the
OCC without material weakness during FY 2009. Specifically, this assurance is provided relative to Sections 2
and 4 of the FMFIA.

I am also reporting substantial compliance with the requirements imposed by the FFMIA.

The OCC also conducted its assessment of the effectiveness of internal control over financial reporting, which
includes the safeguarding of assets and compliance with applicable laws and regulations, in accordance with
the requirements of Appendix A of OMB Circular A-123.  Based on the results of this evaluation, the OCC can
provide unqualified assurance that its internal control over financial reporting, as of June 30, 2009, was operat-
ing effectively, and no material weaknesses were found in the design or operation of the internal control over
financial reporting.

I also provide unqualified assurance that our supervision programs achieved intended results despite the extraor-
dinary challenges that confronted the national banking system during the year. A broad economic slowdown fol-
lowed an historic downturn in U.S. home prices, a contagious loss of confidence across U.S. and global capital
markets, and a severe and rapid liquidity crisis striking the banking system. We have successfully participated in
the government-wide response to these developments.

Large losses due to housing and capital market problems surfaced first in large banks, resulting in downward
pressure on earnings, capital, and liquidity positions. The widespread economic downturn strained nearly every
asset class, with virtually all lending sectors experiencing increasing risks. The resulting safety and soundness
concerns spread to many community and midsize banks.

Problems of this magnitude demanded an extraordinary response. Late in 2008, the U.S. Treasury began invest-
ing in preferred shares of economically viable U.S. banks through the Troubled Asset Relief Program (TARP),
starting with the largest domestically owned bank holding companies, aimed at stabilizing the U.S. banking


                                                             Section Five: Financial Management Discussion and Analysis	   75
system. TARP-recipient banks must adhere to specific rules, and our supervision has expanded to include review-
ing and monitoring the banks’ compliance.

In February, the Federal Reserve and the OCC embarked on a simultaneous assessment of the capital held by the
19 largest U.S. bank holding companies. This unprecedented effort allowed supervisors to determine additional
capital buffers each institution might need if the economy weakened more than expected over a two-year period.
Some institutions developed capital plans and are raising tangible common equity to establish the necessary capi-
tal buffers; others needed to raise no additional capital and instead chose to repay TARP monies.

Meanwhile, the number of problem banks within the Community, Midsize, and Special Supervision bank portfo-
lios has increased significantly, and the number of bank failures is rising. Given the scope of the financial crisis,
we expect additional problem banks to emerge, and we anticipate further deterioration in existing problem banks.

OCC personnel are reviewing each failed bank’s supervisory history to identify individual causative factors and
assess the OCC’s oversight effectiveness. The Treasury Office of Inspector General (OIG) has also completed
mandated material loss reviews of five of the national banks that have failed since the current economic crisis
began in 2007. The results of OCC internal reviews and OIG material loss reviews are being used to strengthen
bank supervision processes.

Overall, we believe our supervisory process is fundamentally sound. However, we are addressing the increasing
risks and deficient risk management practices that our examiners identified. We are also taking advantage of les-
sons learned, including: better aggregation of risk concentrations, more robust stress testing, improved capital and
liquidity planning, better coordination with other functional regulators, and less reliance on rating agency ratings.

Finally, in FY 2008 we reported that only 18 percent of the targeted 80 percent of FY 2007 consumer complaints
were closed within 60 calendar days of receipt. Following a management improvement project in FY 2008, we
adjusted our processes and implemented an online consumer complaint form. The simplified form submission
process and the extraordinary economic environment of the past year have accounted for a 90 percent increase in
complaint volume. Nonetheless, we continue to redeploy staff resources and streamline complaint processing and
expect to meet our Customer Assistance Group’s target performance objective in early 2010.

Analytical Basis of Assurance Statement

OCC evaluated its management controls in accordance with the FY 2009 Secretary’s Assurance Statement
Guidance of July 10, 2009, and also considered the following guidance:

      •	   OMB Circular A-123, Management’s Responsibility for Internal Control;
      •	   OMB Circular A-127, Financial Management Systems;
      •	   OMB Circular A-130, Management of Federal Information Resources; and,
      •	   Treasury Directive 40-04, Treasury Internal (Management) Control Program.

Information considered in our control assessment included the following:

      •	   FMFIA and FFMIA certifications submitted by each Executive Committee member;
      •	   The OCC’s Strategic Risk Management Plan;
      •	   Results of internal control testing under OMB Circular A-123, Appendix A;
      •	   Executive Committee descriptions of business unit quality management programs;




76	        Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
•	 Results of internal reviews, including quality management program testing by the Enterprise
   Governance unit;
•	 Results of control self-assessments completed by OCC managers in FY 2009;
•	 Audit reports and evaluations issued by the Government Accountability Office and the Office of the
   Inspector General;
•	 Completion of risk assessment materials related to the Improper Payments Information Act by our
   Deputy Chief Financial Officer, which was submitted to the Department in May 2009;
•	 Completion of GAO’s Core Financial System Requirements Checklist;
•	 Unqualified and timely audit opinion on FY 2008 financial statements; and,
•	 CPAs Gardiner, Kamya and Associates’ status report of October 16, 2009, on the FY 2009 financial
   statement audit.




                                                                            John C. Dugan
                                                                            Comptroller of the Currency
                                                                            November 3, 2009




                                                  Section Five: Financial Management Discussion and Analysis	   77
78	   Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
Acronyms

ATM: Automated Teller Machine

CAMELS:
	 C	 Capital
	 A	 Asset quality
	 M	 Management
	 E	 Earnings
	 L	 Liquidity
	 S	 Sensitivity to market risk

CPA: Certified Public Accountant

FDIC: Federal Deposit Insurance Corporation

FFMIA: Federal Financial Management Improvement Act

FMFIA: Federal Managers’ Financial Integrity Act

FY: Fiscal year

GAAP: Generally accepted accounting principles

HMDA: Home Mortgage Disclosure Act

OCC: Office of the Comptroller of the Currency

OIG: Office of Inspector General

OMB: Office of Management and Budget
OTS: Office of Thrift Supervision

S&P: Standard & Poor’s

SFAS: Statement of Financial Accounting Standards

SFFAS: Statement of Federal Financial Accounting Standards

TARP: Troubled Asset Relief Program

USC: U.S. Code




                                                             Acronyms	   79
80	   Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
Index
A
Actuarial Standards Board, 61
Alcohol, Tobacco, Firearms, and Explosives, Bureau of, 32
American Bankers Association, 16, 17
assessments, OCC, 12, 29, 48, 49, 51, 53, 58, 60, 64, 65, 77
Asset Guarantee Program, 8
Automotive Industry Financing Program, 8

B
Bank Information Technology Division, OCC, 30
Banking, Housing, and Urban Affairs, U.S. Senate Committe on, 25
Banking Relation Division, OCC, 34, 35
Bank Secrecy Act, 31
Bank Supervision Policy and Chief National Bank Examiner, OCC, 14, 30
Basel Committee on Banking Supervision, 4, 16, 17, 25, 31
Basel II, 4, 17, 29, 30, 31, 32
Bloom, Thomas R., 26, 48
Bush, President George W., 9

C
Capital Assistance Program, 8
Capital Policy Division, OCC, 30
Capital Purchase Program (CPP), 8, 10, 11
Capital Steering Committee, OCC, 30
Change in Bank Control Act, 39, 40
Chief Financial Officer. See Bloom, Thomas R.
Chief Information Officer. See Paul, Bajinder N.
Chief National Bank Examiner. See Long, Timothy W.
Chief of Staff and Public Affairs. See Walsh, John G.
Civil Service Retirement System (CSRS), 53, 60
Commercial Credit Risk Division, OCC, 31
Committee on Bank Supervision, OCC, 27, 30, 33
Communications Division, OCC, 35
Community Affairs Department, OCC, 36, 37, 43
Community Reinvestment Act (CRA), 14, 28, 31, 37, 41, 43, 73
Competitive Equality Banking Act of 1987, 25
Complaint Referral Express, 44
Compliance Policy Department, OCC, 31
Comptroller of the Currency. See Dugan, John C.
Congressional Liaison, OCC, 34, 35
Consumer Financial Protection Agency, 19
corporate applications activity, 39

                                                                        Index	   81
credit underwriting standards, 3, 13, 14
Cuomo v. Clearing House Association, 18
Customer Assistance Group, OCC, 35, 43, 44, 45, 76

D
Data and Analytical Support Division, OCC, 29
Data Processing Servicers program, OCC, 30
Debt Guarantee Program, Federal Deposit Insurance Corporation, 10
Deputy Comptroller for Community Affairs. See Wildes, Barry R.
Deputy Comptroller for Compliance Policy. See Jaedicke, Ann F.
Dugan, John C., 3, 10, 14, 16, 17, 19, 25, 43, 44, 77

E
Emergency Economic Stabilization Act of 2008, 9
Enforcement actions, 13, 18, 34, 41
Enterprise Governance, OCC, 32, 35, 77
Erroneous Payments and Recovery Act of 2001, 74
Executive Committee, OCC, 26, 27, 28, 30, 32, 33, 36, 76
External Outreach and Minority Affairs Division, 35

F
Federal Accounting Standards Advisory Board, 58
federal branches and agencies of foreign banks, 25
Federal Deposit Insurance Corporation (FDIC), 8, 9, 10, 12, 13, 25, 79
Federal Employees Compensation Act (FECA), 63
Federal Employees Group Life Insurance (FEGLI), 53, 61, 65
Federal Employees Health Benefits Program (FEHB), 53, 61
Federal Employees Retirement System (FERS), 53, 60
Federal Financial Institutions Examination Council (FFIEC), 30
Federal Financial Management Improvement Act (FFMIA), 75, 76, 79
Federal Managers’ Financial Integrity Act (FMFIA), 75, 76, 79
Federal Reserve System, 4, 8, 9, 10, 12, 13, 14, 23, 28, 76
Financial Accounting Standards (FAS) 166 and 167, 12
Financial Accounting Standards Board, 31
Financial Institutions Reform, Recovery, and Enforcement Act of 1989, 25
Financial Literacy Web Resource Directory, 43
Financial Markets Group, 31
Financial Modernization Act of 1988, 25
Financial Services, U.S. House Committee on, 15
Financial Stability, Assistant Secretary of the Treasury for, 11
Financial Stability Board, 19
Financial Stability Forum, 16
First Senior Deputy Comptroller and Chief Counsel. See Williams, Julie L.
formal enforcement actions, 41
Fraud Enforcement and Recovery Act of May 2009, 18
Freedom of Information Act (FOIA), 45

G
Geithner, Timothy F., 11
Glass-Steagall Act, 25
Government Accountability Office, U.S., (GAO), 35, 74, 77

82	    Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
H
Hattix, Larry, 44
Home Affordable Modification Program, 15
Home Affordable Refinance Program, 15
Home Mortgage Disclosure Act (HMDA), 13, 79
Housing and Urban Development (HUD), U.S. Department of, 32

I
Improper Payments Information Act of 2002, 74, 77
Independent Auditor’s Report, 67
Industry and Regional Analysis Division, OCC, 29
Information Risk Management, 33
Information Technology Services (ITS), 32, 44, 45, 47
Institute of International Bankers, 17
Integrated Mobile Employee Technology Refresh and Optimization Program, 45
Interagency Country Exposure Review Committee, 29
Interagency Guidance on Funding and Liquidity Risk Management, 17
Internal Revenue Service, 60
International Accounting Standards Board, 31
International Analysis and Banking Condition Division, OCC, 29
International Association of Insurance Supervisors, 25
International Monetary Fund, 28
International Organization of Securities Commissions, 25

J
Jaedicke, Ann F., 13
Joint Forum, 16, 25

K
Kelly, Jennifer C., 27

L
Labor, U.S. Department of, 63
Large Bank Supervision, 30, 32, 33, 34
Law Department, OCC, 36, 37
Letter from the Chief Financial Officer, 47
Levonian, Mark, 28
Licensing Actions and Timelines, 40
Licensing Department, OCC, 36, 37, 39
loan losses, reserves and provisions, 17–19, 21, 23
Long, Timothy W., 14, 30

M
Making Home Affordable Program, 8
Market Risk Division, OCC, 31
Midsize/Community Bank Supervision, 27, 28, 30
Mortgage Metrics Report, 4, 15, 16

N
National Bank Act of 1864, 58
national banking system, condition of, 3, 5, 9, 12, 21, 26, 29, 35, 37, 42, 45, 48, 51, 53, 58, 64, 73, 75


                                                                                                         Index	   83
National Currency Act of 1863, 20, 58
National Risk Committee, OCC, 29, 31
NeighborWorks America, 36
New York, Attorney General of, 18

O
Office of Financial Stability, U.S. Treasury Department, 10, 11, 26
Office of Management and Budget (OMB), 34, 35, 47, 58, 74, 75, 76, 79
Office of Management, OCC, 26, 47, 48, 58, 74, 75, 79
Office of Personnel Management (OPM), 42, 53, 61, 64, 65
Office of the Chief Accountant, OCC, 31
Office of the Chief Counsel, OCC, 36, 37, 39
Office of the Comptroller of the Currency (OCC):
    401(k) plan, 60
    accounts receivable, 54, 59, 60
    assessments, 12, 29, 48, 49, 51, 53, 58, 60, 64, 65, 77
    Assurance Statement, 75, 76
    basis of accounting and presentation, 58
    budgetary resources, 49, 53, 57, 58, 59, 66
    CAMELS rating, 73, 79
    contingent liabilities, 60
    continuity of operations planning, 75
    Financial Literacy Update, 43
    financial statements, 47, 49, 54, 55, 56, 57, 58, 59, 61, 77
    hiring and training, 5, 42
    investments, 14, 33, 37, 48, 49, 51, 52, 53, 58, 64, 65
    leasehold improvements, 51, 64
    leases, 27, 48, 62
    London office, 33, 34
    performance measures of, 73, 74
    retirement life insurance and benefit plan, 60–61
Office of the Inspector General, U.S. Treasury Department, 76, 77
Office of Thrift Supervision (OTS), 13, 15, 16, 19, 36, 79
Ombudsman. See Hattix, Larry
Operational Risk Policy Division, OCC, 31

P
Paul, Bajinder N., 32, 45
Policy Analysis Division, OCC, 29
President’s Working Group on Financial Markets, 9
Press Relations, OCC, 35
Primary Dealer Credit Facility, 8
Privacy Act, 45
prompt corrective action directives. See formal enforcement actions
Prompt Payment Act, 59
Public Affairs, OCC, 34, 35, 47

R
recession, of 1990-1991, 23
regulatory restructuring, 5, 19, 48

84	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2009
Retail Credit Risk Division, OCC, 32
reverse mortgages, 16
Roeder, Douglas W., 33

S
Secretary of the Treasury. See Geithner, Timothy F.
Securities and Exchange Commission, U.S., 31
Senior Deputy Comptroller for Bank Supervision Policy and Chief National Bank Examiner. See Long,
	 Timothy W.
Senior Deputy Comptroller for Economics. See Levonian, Mark
Senior Deputy Comptroller for Large Bank Supervision. See Roeder, Douglas W.
Senior Deputy Comptroller for Management and Chief Financial Officer. See Bloom, Thomas R.
Senior Deputy Comptroller for Midsize/Community Bank Supervision. See Kelly, Jennifer C.
Senior Supervisors Group, 16
Shared Application Software Reviews, OCC, 30
shared national credit, 13, 34
Small Business Administration, 14
S&P/Case-Shiller Home Price Index, 7
Statement of Federal Financial Accounting Standards (SFFAS), 58, 59, 60, 62, 64, 79
Statements of Budgetary Resources, 49, 53, 57, 58, 59
Statements of Changes in Net Position, 49, 50, 52, 56, 58, 64, 65
Statements of Net Cost, 49, 52, 53, 55, 58, 62, 63, 65
stress tests. See Supervisory Capital Assessment Program
Supervisory Capital Assessment Program, 11
Supreme Court, U.S., 18
Survey of Credit Underwriting Practices 2005, 3
Survey of Credit Underwriting Practices 2009, 13
Systematically Significant Failing Institutions Program, 8

T
Targeted Investment Program, 8
Temporary Liquidity Guarantee Program, Federal Deposit Insurance Corporation, 8
Term Asset-Backed Securities Loan Facility, Federal Reserve Board, 8
Term Auction Facility, Federal Reserve Board, 8
Term Securities Lending Facility, Federal Reserve Board, 8
Thrift Savings Plan (TSP), 60
Transaction Account Guarantee Program, Federal Deposit Insurance Corporation, 10
Treasury, U.S. Department of the, 8, 9, 10, 11, 15, 19, 25, 26, 34, 35, 36, 48, 49, 51, 58, 59, 60, 74, 75, 76
Troubled Asset Relief Program (TARP), 4, 8, 9, 10, 11, 14, 26, 28, 75, 76, 79

U
Uniform Commission Examination, 42, 43

W
Walsh, John G., 34
Wides, Barry R., 43
Williams, Julie L., 36




                                                                                                         Index	   85
The Office of the Comptroller of the Currency seeks to assure a banking system in which national banks
soundly manage their risks, comply with applicable laws, compete effectively with other providers of
financial services, offer products and services that meet the needs of customers, and provide fair access
to financial services and fair treatment of their customers.
